la

Appendix A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
: United States
Court of Appeals
Fifth Circuit
Filed
October 26, 2018

NO. 17-60502
D C. Docket No. 2:16-CR-7-l
UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
CHARLES BOLTON
Defendants-Appellants
Appeal From The United States District Court
For The Southern District of Mississippi

2a
Before STEWART, Chief Judge, and WIENER and
HIGGINSON, Circuit Judges
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is affirmed as modified.

3a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States
Court of Appeals
Fifth Circuit Filed
October 26, 2018

No. 17-60502
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON; LINDA BOLTON,
Defendants - Appellants
Consolidated with:17J60576
UNITED STATES OF AMERICA,
Plaintiff - Appellee
CHARLES BOLTON,
Defendant - Appellant

4a

Appeals from the United States District Court
for the Southern District of Mississippi

Before STEWART, Chief Judge, and WIENER and
HIGGINSON, Circuit Judges.
IT IS ORDERED that our prior panel opinion,
United States v. Bolton, No. 17-60502 c/w 17-60576,
2018 WL 5303661 (5th Cir. Oct. 23, 2018), is
WITHDRAWN and the following opinion is
SUBSTITUTED therefor.
A grand jury indicted Plaintiffs-Appellants Charles
Bolton (“Charles”) and his wife, Linda Bolton
(“Linda”), on five counts of attempted tax evasion
and five counts of filing false tax returns. The jury
convicted Charles on four of the attempted tax
evasion counts and all five counts of filing false tax
returns. The jury acquitted both Boltons on one of
the attempted tax evasion counts, failed to reach a
verdict as to Linda on the remaining attempted tax
evasion counts, and convicted Linda on all five
counts of filing false tax returns.
The district court sentenced Charles to 45 months of
imprisonment, imposed three years of supervised
release with a special condition requiring payment of
$145,849.78 in restitution and a $10,000 fine. The
district court sentenced Linda to 30 months of
imprisonment, with a one-year term of supervised
release, a $6,000 fine, and restitution of $145,849.78,
owed jointly and severally with Charles. Both

5a
Charles and Linda appeal their convictions and
sentences. We affirm the Boltons’ convictions and
sentences in all respects except that we modify the
district court’s judgment to reflect that the
restitution owed by the Boltons is not due until their
terms of supervised release commence.
I. Facts & Procedural History
In 1992, Charles became chief deputy sheriff of the
Forrest County Sheriffs Office (“FCSO”) in
Hattiesburg, Mississippi. He was terminated from
the FCSO in 2016 after he was convicted in this
case. As chief deputy, he oversaw the Forrest
County Juvenile and Adult Detention Center. At
that time, he and his wife Linda also owned and
operated two businesses,1 Hall Avenue Package
Store and Sports 22 Cafe and Lounge.
In March 2014, the Federal Bureau of Investigation
(“FBI”) and the Mississippi State Auditor’s Office
began an investigation into whether the Boltons and
others were stealing food from the FCSO’s Detention
Center.2 In July 2015, the U.S. Attorney’s Office for
the Southern District of Mississippi received
1 The Boltons’ businesses were Schedule C businesses which
are considered sole proprietorships. Taxes for Schedule C
businesses are reported on the owner’s personal income tax
return.
2 The 2014 food theft investigation did not result in charges
against the Boltons in the underlying proceedings but the
district court determined the incident to be relevant conduct for
purposes of sentencing and its calculation of the loss and
restitution amounts. See U.S.S.G. § 1B1.3.

6a
approval to recuse itself from the investigation and
prosecution of Charles, and the matter was re­
assigned to the U.S. Attorney’s Office for the Eastern
District of Louisiana. Around that time, the FBI
referred several suspicious checks related to the
Boltons’ businesses to Internal Revenue Service
(“IRS”) Special Agent Bradley Luker who began a
criminal tax investigation to determine whether the
Boltons were guilty of any tax laws.
Agent Luker provided information about the
criminal tax investigation to the Assistant United
States Attorney Fred Harper of the Eastern District
of Louisiana who had been assigned to Charles’s
case.
A federal grand jury returned a ten-count indictment
in March 2016 charging the Boltons with attempted
tax evasion and aiding and abetting in attempted
tax evasion for the tax years 2009 through 2013, in
violation of 26 U.S.C. § 7201 and 18 U.S.C. § 2
(Counts 1-5), as well as filing false tax returns and
aiding and abetting in the filing of false tax returns
for tax years 2009 through 2013, in violation of 26
U.S.C. § 7206(1) and 18 U.S.C. § 2 (Counts 6-10).
After the Boltons were indicted, attorney Joe Sam
Owen (“Owen”) enlisted as counsel of record on
behalf of Charles. Linda was represented by several
different attorneys before trial, and by attorney
Robert McDuff at trial and sentencing.
Prior to trial, the government stated its intent to
introduce business records, checks, check registers,
and tax returns of an individual named John Lee
(“Lee”), who, through his law practice, Lee P.A., was

7a
involved with the Boltons, as business or public
records. The government also subpoenaed Lee to
testify at trial, and Charles subpoenaed a large
number of checks from Lee’s law practice as well as
Lee’s casino gambling records.
Before trial, Lee hired attorney Rick Simmons who
moved to quash a subpoena by the government to
testify at trial on grounds that Lee would be
invoking his Fifth Amendment privilege against selfincrimination. The district court denied the motion,
but the parties stipulated at the outset of trial that
Lee would not actually testify even if called. The
parties also stipulated that records or summaries of
records were admissible as business records, and the
Boltons stipulated to the authenticity of their
handwriting on various exhibits. The parties further
stipulated that Lee had invoked his Fifth
Amendment privilege, and the jury was instructed
that Lee would not be called3 as a wit ness.
The Boltons’ three-day jury trial began in September
2016. At trial, the government presented evidence
that the Boltons treated money received by their two
businesses as “loans” rather than “income” when
reporting their business income on their personal
income tax returns, prepared by Renee Moore
(“Moore”) of Nicholson and Company, thus falsely
reducing their tax liability. The deposits in question
included checks from various entities and
individuals, including Lee and Manheim Mississippi
Auto Auction.
3 The district court ruled that the Boltons could comment at
trial on Lee’s invocation of his Fifth Amendment privilege.

8a

The jury ultimately convicted Charles on four counts
of attempted tax evasion and all five counts of filing
false tax returns. The jury acquitted each Bolton on
one count of attempted tax evasion, failed to reach a
verdict as to Linda on the remaining attempted tax
evasion counts, and convicted Linda on all five
counts of filing false tax returns.
The presentence reports (“PSRs”) for Charles and
Linda described an interview (referred to as an “FBI
302”) of Lee by federal agents regarding checks he
had given to Charles. Linda moved for a new trial
based on an alleged discrepancy between the
information in the FBI 302 and the testimony of
Agent Luker. Linda also argued that the failure to
disclose the substance of the interview violated the
government’s discovery obligations and constituted a
Brady violation. Charles joined the motion. The
district court denied the new trial motion, finding no
discrepancy between Agent Luker’s trial testimony
and the information in the FBI 302.
Three days before sentencing, Charles’s attorney,
Owen, advised the court that Charles had obtained
new counsel and that Charles would be complaining
about his (Owen’s) handling of the case. On the day
of sentencing, Charles sought to be represented by
new counsel, Willie J. Huntley—an out-of-state
attorney who said he would need more time to
review the case before being ready to proceed. The
district court declined to grant a continuance and
offered Charles the choice of being represented at
sentencing by Owen or by an attorney from the
Federal Public Defender’s Office. Ultimately,

9a
Charles was represented at sentencing by Owen, and
Huntley was allowed to assist.
In sentencing Charles, the district court upwardly
varied from the guidelines range of 27 to 33 months,
imposing a 45-month term of imprisonment. The
variance was based on the district court’s finding
that he had stolen food inventory from the FCSO
Detention Center and used the food at his Sports 22
restaurant and catering business. The district court
also imposed three years of supervised release with a
special condition requiring payment of $145,849.78
in restitution and a $10,000 fine. Charles reported
to federal prison on May 3, 2017. He then moved the
district court for release pending appeal, which the
district court denied.4
After sentencing, Owen sought and received
permission to withdraw as counsel of record for
Charles. Three days after entry of the judgment,
Charles filed a notice of appeal, and also filed three
motions seeking a new trial or vacatur of his
conviction and sentence. Among numerous other
arguments, Charles argued that his representation
by Owen was paid for by Lee and was therefore
tainted by a conflict of interest. This court
remanded the case pursuant to Federal Rule of
Appellate Procedure 12.1(b) so that the district court
could rule on the motions, expressly declining to
retain jurisdiction.

4 This court denied Charles’s motion for release pending appeal
on August 7, 2017.

10a
Following remand, the district court issued an order
reviving the pending motions, setting briefing
deadlines, and ordering former counsel Owen and
McDuff to respond to various allegations of
ineffective assistance of counsel. The government
filed a consolidated response to all of the Boltons’
pending motions, as did Owen and McDuff. On July
3, 2017, the district court denied the new trial
motions. Charles noticed his appeal on July 12
(entered July 13), citing the district court’s July 3
new trial order. Linda noticed her appeal on July
13, also citing the district court’s July 3 new trial
order. Owen asked the district court to deem the
attorney-client privilege and the work-product
doctrine waived so that he could respond to the
Boltons’ allegations of conflict and ineffective
assistance of counsel. Charles objected and Owen
noted that, in multiple motions, he and his firm were
accused of harboring a conflict-of-interest and a
litany of instances of ineffective assistance. The
government supported the waiver. Charles then
sought a protective order, which Owen opposed,
precluding the availability of the documents to the
prosecution, law enforcement, or the public. Owen
identified the claims against him as involving an
alleged conflict about Lee, trial preparation and use
of an expert, jury selection, trial strategy, exhibits,
witnesses, Linda’s decision not to testify, Charles’s
decision not to testify, Charles’s conviction, the PSR
and objections, the in-camera sentencing conference,
the sentencing hearing, and the post-sentencing
submissions under seal.
The district court acknowledged that Charles had
waived his attorney-client privilege and work-

11a
product doctrine but determined that the documents
should be filed under seal and not served on the
government. The government moved for
reconsideration on grounds that it would need the
materials to respond to any appeal filed by Charles
and to defend against allegations of ineffective
assistance of counsel under 28 U.S.C. § 2255. The
district court granted the government’s motion and
placed Owen’s response to Charles’s new trial
motions on the public docket, finding that Charles
“did not point to a single piece of formerly privileged
evidence which would prejudice him either on appeal
or in the event of a new trial.” Charles noticed his
appeal of that order (appeal No. 17-60576).
Charles’s second appeal, No. 17-60576, was
consolidated with the existing appeal of the Boltons’
convictions and sentences, No. 17-60502.
II. Discussion
The Boltons each raise a host of arguments on
appeal including but not limited to; (l) whether the
indictment was sufficient; (2) whether the evidence
was sufficient to support the Boltons’ convictions; (3)
whether one or more Brady violations took place in
the proceedings below; (4) whether the Boltons’
Confrontation Clause rights were violated; (5)
whether the government engaged in prosecutorial
misconduct during trial; (6) whether the district
court erred in its issuance of jury instructions! (7)
whether the district court erred in imposing the
Boltons’ sentences! (8) whether Charles was denied
his right to conflict-free choice of counsel or received
ineffective assistance of counsel; and (9) whether the
district court erred in holding that Charles waived

12a
his attorney-client privilege. We address each issue
in turn.
Indictment
Charles argues that his indictment was insufficient.
Because Charles failed to preserve his objection to
the alleged defective indictment, plain error review
applies. United States v. Robinson, 367 F.3d 278,
285 (5th Cir. 2004). “Plain error exists if (l) there is
an error, (2) the error is plain, ... (3) the error
affectts] substantial rights and (4) the error seriously
affect[s] the fairness, integrity or public reputation
of judicial proceedings.” United States v. GarciaCarrillo, 749 F.3d 376, 378 (5th Cir. 2014) (per
curiam) (internal quotation marks and citation
omitted).
“An indictment is legally sufficient if (l) ‘each count
contains the essential elements of the offense
charged,’ (2) ‘the elements are described with
particularity,’ and (3) ‘the charge is specific enough
to protect the defendant against a subsequent
prosecution for the same offense.’” United States v.
Fairley, 880 F.3d 198, 206 (5th Cir. 2018) C“[T]he
validity of an indictment is governed by practical,
not technical considerations,’ and ‘[t]he basic
purpose behind an indictment is to inform a
defendant of the charge against him[.]’).
The government charged five counts of attempted
tax evasion and aiding and abetting in attempted
tax evasion for the tax years 2009 through 2013 in
violation of 26 U.S.C. § 7201 and 18 U.S.C. § 2
(Counts 1*5), and five counts of filing false tax

13a
returns and aiding and abetting in the filing of false
tax returns for the tax years 2009 through 2013 in
violation of 26 U.S.C. § 7206(l) and 18 U.S.C. § 2
(Counts 6-10).
A. Tax Evasion
“The elements of [§7201 tax evasion are]: (i)
willfulness, (2) existence of a tax deficiency; and (3)
an affirmative act constituting an evasion or
attempted evasion of the tax.” United States v.
Nolen, 472 F.3d 362, 377 (5th Cir. 2006). The
indictment charged that, for the tax evasion counts,
the Boltons “did willfully attempt to evade and
defeat a large part of the income tax due and owing
by defendants to the United States of America by,
among other things, preparing and causing to be
prepared, and by signing and causing to be signed, a
false and fraudulent joint U.S. Individual Income
Tax Return, Form 1040, on behalf of defendants,
which was filed with the Internal Revenue Service.”
The indictment further alleged that the Boltons
attempted to evade and evaded the assessment of
their income taxes by cashing tens of thousands of
dollars in checks purportedly issued in payment for
liquor, wine, and catering services to prevent those
payments from being recorded on their business
bank statements! providing deceptive records to
their tax return preparer! and making false
statements to their tax return preparer that some
payments for goods and services were loans. When
compared to the elements required to prove tax
evasion under § 7201, the indictment was sufficient
in that it alleged with specificity the affirmative acts
willfully taken by the Boltons to evade the tax they

14a
knew they owed, provided the Boltons notice of the
alleged crime, and protected them from subsequent
prosecution for the same crime. Fairley, 880 F.3d at
206.
B. Filing False Tax Returns
“A person commits the felony of filing a false tax
return in violation of 26 U.S.C. § 7206(l) when he
‘willfully makes and subscribes any return,
statement, or other document, which contains or is
verified by a written declaration that it is made under
the penalties of perjury, and which he does not believe
to be true and correct as to every material matter.’”
United States v. Bishop, 264 F.3d 535, 546 (5th Cir.
2001) (quoting 26 U.S.C. § 7206(l)).
The indictment alleged that the Boltons “did willfully
make and subscribe to a joint United States Income
Tax Return, Form 1040, which was verified by a
written declaration that it was made under penalty of
perjury and was filed with the Internal Revenue
Service [which] defendants herein did not believe to
be true and correct as to every material matter for
each calendar tax year noted [2009-2013]” in that
they knew and believed they had failed to report a
substantial amount of income on Line 22 of the Form.
Viewing the language of the indictment against the
elements required to prove the crime of filing a false
tax return, the indictment was sufficient in that it
alleged with specificity the Boltons’ falsification of
the tax returns, provided the Boltons notice of the
alleged crime, and protected the Boltons from
subsequent prosecution for the same crime. Fairley,

15a
880 F.3d at 206. Accordingly, Charles failed to show
plain error with respect to the sufficiency of the
indictments for tax evasion and filing false tax
returns. Garcia-Carrillo, 749 F.3d at 378. In light of
this holding, we do not reach Charles’s alternative
arguments as to the alleged insufficiency or
defectiveness of the indictment.
Sufficiency of the Evidence
Both Charles and Linda argue that the evidence was
insufficient to support the jury’s verdicts of guilt
against them as to the crimes of tax evasion (Charles)
and filing false tax returns (Charles and Linda). The
Boltons preserved their challenges to the sufficiency
of the evidence by moving for and renewing their
motions for a judgment of acquittal. Accordingly,
“[w]e review preserved challenges to the sufficiency of
the evidence de novo, but we are ‘highly deferential to
the verdict.’” United States v. Scott, 892 F.3d 791, 796
(5th Cir. 2018).
“When reviewing the sufficiency of the evidence, we
view all evidence, whether circumstantial or direct,
in the light most favorable to the government, with
all reasonable inferences and credibility choices to be
made in support of the jury’s verdict.” Id. It is the
province of the jury to “weigh any conflicting
evidence and to evaluate the credibility of
witnesses.” Id. at 796-97. We consider the evidence
“sufficient to support a conviction if ‘any rational
trier of fact could have found the essential elements
of the crime beyond a reasonable doubt.’” Id. at 797.
Our question is whether “the jury’s verdict was
reasonable, not whether we believe it to be correct.”

16a
Id.
The jury convicted Charles on four of the five counts
of tax evasion. Linda was not convicted of tax
evasion. 26 U.S.C. § 7201 provides that “[a]ny
person who willfully attempts in any manner to
evade or defeat any tax imposed by this title or the
payment thereof shall... be guilty of a felonyU”
“The elements of [§ 7201 tax evasion are]: (l)
willfulness, (2) existence of a tax deficiency! and (3)
an affirmative act constituting an evasion or
attempted evasion of the tax.” Nolen, 472 F.3d at
377. “Affirmative acts that satisfy the [third]
element may include keeping double sets of books,
concealment of assets, or ‘any conduct, the likely
effect of which would be to mislead or to conceal.’”
United States v. Miller, 588 F.3d 897, 907 (5th Cir.
2009). To prove willfulness “the government must
show that: (i) the law imposed a duty on the
defendant! (2) the defendant knew of that duty,' and
(3) the defendant voluntarily and intentionally
violated that duty.” Id. “Such evidence is ordinarily
circumstantial, since direct proof is often
unavailable.” United States v. Kim, 884 F.2d 189,
192 (5th Cir. 1989). To prove a tax deficiency the
government must establish that the taxpayer had
unreported taxable income. United States v.
Conaway, 11 F.3d 40, 43 (5th Cir. 1993).
The jury convicted both Charles and Linda of five
counts of filing false tax returns, or aiding and
abetting in filing false tax returns, for the years of
2009 through 2013. A person commits the felony of
filing a false tax return in violation of 26 U.S.C. §
7206(1) when he “[w]illfully makes and subscribes

17a
any return, statement, or other document, which
contains or is verified by a written declaration that it
is made under the penalties of perjury, and which he
does not believe to be true and correct as to every
material matter [.]”
At the Boltons’ trial, the government presented
sufficient evidence that Charles evaded taxes for the
years 2010 through 2013 and that the Boltons filed
false tax returns in which they consistently
underreported their income from 2009 through 2013.
The government’s evidence included numerous
instances when the Boltons (l) cashed a significant
number of checks before they were recorded in the
Boltons’ financial books, and (2) designated
significant amounts of income as non-taxable loans.
Agent Luker testified at trial that he had traced the
income derived from the cashed checks and the
checks marked as loans in the Boltons’ records and
concluded that they had a tax deficiency resulting
from underreporting their income from their two
businesses. Agent Luker used a multitude of specific
examples of the checks marked as loans and the
checks that were cashed before they “hit the books”
to illuminate the discrepancy between the Boltons’
actual income and their reported income. The
government also presented a number of charts at
trial which featured year-by-year summary
computations of the Boltons’ “reported” versus their
“corrected” taxable income resulting from cashed
checks and checks marked as loans.
Consequently, given this court’s high level of
deference to the jury’s verdict and the mountain of
evidence presented at trial in support of the jury’s

18a
verdict, specifically proving the elements of tax
evasion as to Charles and filing false returns as to
both Charles and Linda, we hold that the evidence
was sufficient to support the Boltons’ convictions.
Scott, 892 F.3d at 796-97. In light of this holding,
we do not reach either Charles’s or Linda’s
alternative arguments as to the alleged insufficiency
of the evidence.
Alleged Brady Violations
The Boltons contend that the Brady material
suppressed by the government includes^ (l) a
Department of Justice memorandum dated July 29,
2015, (2) an FBI 302 interview report documenting
Lee’s statements to law enforcement that allegedly
contradict the trial testimony of Agent Luker, (3) a
subpoena issued by the government to Carl
Nicholson (“Nicholson”), and (4) Lee’s plea
agreement. “We review a district court’s
determination on a Brady claim de novo, though we
defer to factual findings underlying the district
court’s decision.” United States v. Swenson, 894 F.3d
677, 683 (5th Cir. 2018) (citing United States v.
Cessa, 861 F.3d 121, 128 (5th Cir. 2017)).
Under Brady, “the government violates a defendant’s
due process rights if it withholds evidence that is
favorable to the accused and material to the
defendant’s guilt or punishment.” Swenson, 894
F.3d at 683 (citing Brady v. Maryland, 373 U.S. 83,
87 (1963)). The rule is applied regardless “of the
good faith or bad faith of the prosecution . . . [and]
extends to impeachment evidence as well as
exculpatory evidence.” Id. (citing Youngblood v.

19a
West Virginia, 547 U.S. 867, 869 (2006); Brady, 373
U.S. at 87). For a defendant to prevail on a Brady
claim, he “must show: (i) the evidence at issue was
favorable to the accused, either because it was
exculpatory or impeaching; (2) the evidence was
suppressed by the prosecution; and (3) the evidence
was material.” Id. The usual remedy for a Brady
violation is a new trial. Swenson, 894 F.3d at 684.
The Boltons fail to make a successful argument on
any of their purported Brady claims. With respect to
Charles’s argument regarding the DOJ
memorandum dated July 29, 2015, that memo
simply addressed conflicts within the US Attorney’s
Office, Mississippi division, and authorized transfer
to the US Attorney’s Office, Louisiana division. This
subject matter has no bearing on Agent Luker’s
status as an IRS agent within the Department of
Treasury. Moreover, the recusal information of the
Mississippi division of the US Attorney’s Office is
immaterial to Charles’s ability to “prepare a proper
defense against the indictment” for his own crimes of
tax evasion and filing false tax returns. Accordingly,
the memorandum does not qualify as Brady
material. Swenson, 894 F.3d at 683.
Both Charles and Linda argue that the FBI 302
interview report, which documents Lee’s statements
to law enforcement that allegedly contradict Agent
Luker’s trial testimony, was improperly suppressed
Brady material. They claim that they would have
used Lee’s statements in the interview that he could
not remember what each and every check he wrote
to the Boltons’ businesses was for to contradict
Agent Luker’s testimony that Lee told him that the
checks were written for food and liquor. As the

20a
district court properly observed, Lee’s statements did
not go to the truth of Agent Luker’s testimony or to
his own credibility because they were intended to
highlight the suspicious nature of all the money
going from Lee’s firm to the Boltons’ restaurant
* under the auspices of purchasing “business
supplies”! they were not solicited to disprove Agent
Luker’s testimony that Lee had told him that the
checks were written for food and liquor. United
States v. St. Junius, 739 F.3d 193, 202 (5th Cir.
2013) (“Under Federal Rule of Evidence 801(c),
hearsay is a statement, other than one made by the
declarant while testifying at trial or a hearing,
offered in evidence to prove the truth of the matter
asserted . . . The rule against hearsay does not apply
when an out-of-court statement is offered for some
purpose other than to prove the truth of the matter
asserted.”). Moreover, Lee’s statement to Agent
Luker that the checks were written for food and
liquor does not contradict or undermine his
statement in the FBI 302 interview that he could not
remember what each individual check was for when
he was shown a spreadsheet of payments at a later
date. It is certainly conceivable that Lee stood by his
story that all of the checks were written either for
food or liquor without claiming to remember what
each specific check was written for. Accordingly, the
FBI 302 interview report does not qualify as Brady
material. Swenson, 894 F.3d at 683. Charles argues
that the subpoena issued by the government to
Nicholson was improperly suppressed Brady
material because it “addressed the nature of certain
checks that were written from John Lee to Joe Sam
Owen and provided written acknowledgement of
those checks.” As the government observes,

21a
however, Charles’s argument on this issue goes to
the purported conflict of interest that he believed his
attorney had—not to his own defense of the charges
against him for tax evasion and filing false tax
returns. Accordingly, the subpoena was immaterial
and neither exculpatory nor impeaching. Thus, it
did not qualify as Brady material. Swenson, 894
F.3d at 683.
Finally, Charles fails to brief his argument that
Lee’s plea agreement was improperly suppressed
Brady material and thus has waived the issue. See
Procter & Gamble Co. v. Am way Corp., 376 F.3d 496,
499 n.l (5th Cir. 2004) (“Failure [to] adequately 0
brief an issue on appeal constitutes waiver of that
argument.”). In any event, the plea agreement was
signed after the Boltons were tried and convicted
and thus could not have conceivably qualified as
Brady material. Swenson, 894 F.3d at 683.
Confrontation Clause Rights
Both Charles and Linda argue that their
Confrontation Clause rights were violated when
Agent Luker was permitted to testify as to out-ofcourt statements that Lee had made to him since
Lee was not available for cross-examination at trial
given his invocation of the Fifth Amendment right
against self-incrimination. “Alleged Confrontation
Clause violations are reviewed de novo and subject
to harmless error analysis.” United States v. Garcia,
887 F.3d 205, 209 (5th Cir. 2018). However, “[a]
defendant may not complain on appeal of errors that
he himself invited or provoked the [district] court. . .
to commit.” United States v. Salazar, 751 F.3d 326,

22a
332 (5th Cir. 2014) (citing United States v. Wells,
519 U.S. 482, 487-88 (1997)). Only errors attributed
to the actions of the defense will be considered
invited errors. Id. The standard of review for invited
error is higher than that of plain error review. Id.
“We will not reverse on the basis of invited error,
absent manifest injustice.” Id.
“The Confrontation Clause guarantees a defendant
the opportunity for effective cross-examination.”
United States v. Lockhart, 844 F.3d 501, 510 (5th
Cir. 2016) (citing Delaware v. Fensterer, 474 U.S. 15,
19-20 (1985)). The Supreme Court has held “that
the prosecution violates this clause when it
introduces ‘testimonial statements of a witness who
did not appear at trial unless he was unavailable to
testify, and the defendant had had a prior
opportunity for cross-examination.’” Garcia, 887 F.3d
at 212 (quoting Crawford v. Washington, 541 U.S.
36, 53-54 (2004)).
During the trial, the district court ruled that the
government could not elicit testimony concerning
Lee’s out-of-court statements on grounds that Lee
was unavailable to be cross-examined because he
had asserted his Fifth Amendment privilege against
self-incrimination and would not testify at trial. The
district court ruled that any out-of-court statement
by Lee would be considered hearsay without an
applicable exception. The record reflects that the
government did not question Agent Luker or anyone
else about the content of any out-of-court statement
by Lee. However, during Owen’s cross-examination
of Agent Luker, he asked Luker to “[t]ell the jury,
please, what business supply John Lee purchased

23a
from Sports 22.”
The district court interrupted and suggested that the
solicited testimony would be inadmissible hearsay
and a bench conference was held with all counsel.
Outside of the presence of the jury, both defense
counsel urged the court to allow the line of
questioning and acknowledged that Agent Luker’s
answers would involve statements that Lee had
made to him. The bench conference ended and Owen
stated to Agent Luker- “So if I understand your
testimony, what John Lee has told you with
reference to the cashed checks is that he bought
$273,520 worth of food and liquor from Sports 22
and Hall’s Package.” Agent Luker responded, “Over
the five years, that’s correct.” Owen commented
“You will agree that’s a lot of ribs, isn’t it?” and
Agent Luker answered affirmatively.
Given the above record evidence, we conclude that
the Boltons, through their counsel, invited the error
of soliciting Agent Luker to testify as to statements
that Lee made, resulting in the admission of
hearsay. Salazar, 751 F.3d at 332. Considering,
however, the substantial amount of evidence
presented at trial against the Boltons that did not
include the checks written by Lee, admission of the
hearsay statements did not result in a “manifest
injustice.” Id.
Charles claims he dissented from Owen’s decision to
solicit the hearsay statements but he misinterprets
the law on this issue. As the government points out,
the right to confrontation is susceptible to waiver by
counsel but when a defendant does not object to his
attorney’s decision at trial or present an argument

24a
as to why his counsel’s actions could not have been a
legitimate trial tactic, he waives that right. United
States v. Ceballos, 789 F.3d 607, 616 (5th Cir. 2015)
(quoting United States v. Reveles, 190 F.3d 678, 683
(5th Cir. 1999) (“When a defendant has waived a
right, the district court cannot be said to have erred
by failing to override the intentions of the
defendant’s counsel by asserting the right sua
sponte.” (emphasis in original))); see also United
States v. Stephens, 609 F.2d 230, 232-33 (5th Cir.
1980) (holding “that counsel in a criminal case may
waive his client’s Sixth Amendment right of
confrontation by stipulating to the admission of
evidence, so long as the defendant does not dissent
from his attorney’s decision, and so long as it can be
said that the attorney’s decision was a legitimate
trial tactic or part of a prudent trial strategy”).
Here, the Boltons have failed in both respects since
they did not object to their respective counsels’
decisions to solicit the hearsay statements at trial,
and they have failed to present any type of argument
on appeal as to why admission of the statements
could not have been a legitimate trial tactic.
Ceballos, 789 F.3d at 616.
Based on a close review of the trial record, we hold
that the district court’s admission of the hearsay
statements was invited error, solicited by both sets
of defense counsel. Salazar, 751 F.3d at 332. The
invited error did not rise to the level of manifest
injustice given the substantial evidence presented at
trial to support the Boltons’ convictions, aside from
the evidence involving the checks written by Lee. Id.
Further, to the extent they attempt to argue
otherwise, the Boltons have failed to show that they

25a
have not waived their Confrontation Clause rights
under Ceballos. 789 F.3d at 616.
Prosecutorial Misconduct
According to Charles, “his Fifth and Fourteenth
Amendments rights to due process of law [were]
violated where the Government engaged in (l)
improper vouching for the credibility of its witnesses,
(2) making false statements to the jury, (3) engaging
in derogatory name calling, and (4) making improper
personal impressions.” He urges de novo review.
This court conducts a two-part analysis of
prosecutorial misconduct. United States v. Meza,
701 F.3d 411, 429 (5th Cir. 2012). First, we consider
whether the prosecutor made an improper remark
and if so, we look next to see if the remark affected
the substantial rights of the defendant. Id.
Usually, we review the first question de novo and the
second for abuse of discretion. Id. We will conclude
that “a defendant’s substantial rights are affected
only where the error in question affected the
outcome of the district court proceedings.” Id. To
determine whether the error affected the outcome of
the proceedings, we must “assess (l) the magnitude
of the statement’s prejudice, (2) the effect of any
cautionary instructions given, and (3) the strength of
the evidence of the defendant’s guilt.” Id. However,
when a defendant fails to object contemporaneously
to the prosecutor’s allegedly improper statements,
we review his prosecutorial misconduct claims for
plain error. United States v. Bennett, 874 F.3d 236,
247 (5th Cir. 2017). Under this standard, a
defendant must show an error that is plain and

26a
affects his substantial rights. Id. at 247-48. “If
these conditions are present, we may exercise our
discretion to correct the error if it ‘seriously affects
the fairness, integrity, or public reputation of
judicial proceedings.”’ Id. at 248.
“In attempting to establish that a prosecutor’s
improper comments constitute reversible error, the
criminal defendant bears a substantial burden.” Id.
at 247. This court does “not lightly make the
decision to overturn a criminal conviction on the
basis of a prosecutor’s remarks alone.” Id. “We also
presume that a jury can and will follow an
instruction that attorneys’ statements are not
evidence, ‘unless there is an overwhelming
probability that the jury will be unable to follow the
instruction and there is a strong probability that the
effect is devastating.’” Id. Our ultimate question is
“whether the prosecutor’s remarks cast serious doubt
on the correctness of the jury’s verdict.” Id.
Despite the fervor of Charles’s claims of
prosecutorial misconduct, the trial record does not
support them. Moreover, the district court
instructed the jury at the start of trial that attorney
statements are not evidence, rendering any potential
prejudice harmless.5 Meza, 701 F.3d at 429.
5 The district court stated:
The first step in the trial will he the opening statements. The
government in its opening statement will tell you about the
evidence which it intends to put before you so that you will
have an idea or a roadmap as to what the government's case is
going to be. Just as the indictment is not evidence, neither is
the opening statement evidence. Its purpose is only to help you
understand what the evidence will be and what the
government will try to prove.

27a
Additionally, given the strength of the evidence
presented against the Boltons at trial, it is unlikely
that the verdict would have been different absent the
prosecutor’s remarks. Id. The prosecutor’s alleged
misconduct, even if proven, did not amount to error,
plain or otherwise. Bennett, 874 F.3d at 247—48.
Jurv Instructions
According to Charles, “[t]he cumulative errors in the
indictment, jury instructions, jury verdict form and
response to jury notes violated [his] Fifth and
Fourteenth Amendment rights to due process and a
fair trial and resulted in faulty guilty verdicts and
sentences.” We disagree. A review of Charles’s
seven arguments on this issue in the context of the
record reveals that he has failed to show plain error
with respect to the indictment (for reasons
previously explained), the jury instructions, or the
jury verdict form. See Fairley, 880 F.3d at 208. We
first note that any instances when the district court
misstated an oral instruction were subsequently
cured by the correct written instructions that were
provided to the jury. Thus, he has failed to show
plain error on any of his arguments to this effect. Id.
We reject all of Charles’s additional claims about the
jury instructions as meritless.
Sentencing
In sentencing Charles, the district court upwardly
varied from the guidelines range of 27 to 33 months,
adding an additional 12 months for the unpaid taxes
on the FCSO food theft, and sentenced him to 45
months of imprisonment. The district court also

28a
imposed three years of supervised release with a
special condition requiring payment of $145,849.78
in restitution and a $10,000 fine. The district court
sentenced Linda to 30 months of imprisonment,
along with one year’s supervised release, a $6,000
fine, and restitution of $145,849.78, owed jointly and
severally with Charles.
A. Loss Amount
Charles and Linda both argue that the district court
improperly calculated the loss amount. We disagree.
A district court’s loss calculation is a factual finding
that this court reviews for clear error. See Fairley,
880 F.3d at 215. The district court’s method of
calculation is an application of the guidelines that
this court reviews de novo. Id. “[T]he guidelines
emphasize the deference that must be shown to the
sentencing judge, who is in a unique position to
assess the applicable loss, so this court need only
determine whether the district court made ‘a
reasonable estimate of the loss.’” Id. “Under the
Sentencing Guidelines, the base offense level for a
tax fraud offense derives from the amount of loss
that is the object of the offense.” United States v.
Johnson, 841 F.3d 299, 303 (5th Cir. 2016). If the
tax loss is uncertain, the district court is permitted
to “make a reasonable estimate based on the
available facts.” Id. “To prevail on an argument
that the district court’s calculation of tax loss was
clearly erroneous, a defendant must introduce
evidence to contradict or rebut the alleged improper
computation of the loss.” Id.
The district court may include tax losses in the total

29a
loss computation that qualify as relevant conduct
under U.S.S.G. § 1B1.3, whether charged or not. See
United States v. Powell, 124 F.3d 655, 666 (5th Cir.
1997) (“[T]he facts of [the defendant’s] conduct make
clear that the district court did not clearly err in
deciding that the state tax evasion was part of [the
defendant’s] relevant conduct. It was therefore
proper for the district court, in calculating [the
defendant’s] sentence, to include the amount of state
fuel excise taxes evaded in the total ‘tax loss’ used to
determine [the defendant’s] base offense level.”). “It
is well established . . . that a ‘jury’s verdict of
acquittal does not prevent the sentencing court from
considering conduct underlying the acquitted charge,
so long as that conduct has been proved by a
preponderance of the evidence.’” United States v.
Andradi, 309 F. App’x 891, 893 (5th Cir. 2009)
(quoting United States v. Watts, 519 U.S. 148, 157
(1997)).
Here, the district court’s total loss amount of
$145,849.78 (as reflected in the PSR) was based on
the tax owed as a result of the charged offenses
($117,369.84) and the estimated amount of tax that
the Boltons failed to pay ($28,479.94) on the food
stolen from the FCSO Detention Center that was
used at their businesses. Testimony was presented
at trial that the Boltons received approximately
$273,000 worth of checks from Lee as income.
Charles incorrectly argues that using the tax loss
amounts from the Lee checks was error because
“[t]he John Lee cashed checks were proven to be
false based on the ‘inadmissible hearsay’ testimony
of IRS Agent Luker.” As we have stated, Agent
Luker’s testimony that Lee told him that the checks

30a
were for “food and liquor” does not negate Lee’s
statements in the FBI 302 interview that he could
not remember what each individual check was for.
Additionally, these statements do nothing to
undermine the information in the PSR or show that
it “was inaccurate or materially untrue.” United
States v. Scher, 601 F.3d 408, 414 (5th Cir. 2010)
(“[The defendant] simply failed to produce reliable
evidence supporting an alternate number or
demonstrating that the information in the PSR was
inaccurate or materially untrue.”).
Further, the district court properly included the
uncharged tax loss of $28,479.94 on grounds that the
tax loss from the stolen food qualified as relevant
conduct. This conclusion was supported by witness
statements and detailed information in the PSR.
Powell, 124 F.3d at 664 (observing that relevant
conduct includes “all such acts and omissions that
were part of the same course of conduct or common
scheme or plan as the offense of conviction” (quoting
U.S.S.G. § 1B1.3(a)(2))).
Additionally, the district court’s inclusion of the loss
amount from Count 1 was proper. Charles’s
acquittal on Count 1 did not prevent the district
court from considering the conduct underlying the
acquitted charge as long as it was proven by a
preponderance of the evidence, which it was in this
case. Watts, 519 U.S. at 157; Andradi, 309 F. App’x
at 893. There was sufficient evidence presented at
trial to prove that the Boltons committed tax fraud
in 2009 and they were both convicted of filing false
returns that year. In sum, because the Boltons have
failed to produce sufficient rebuttal evidence as to

31a
the loss amount, the district court did not clearly err
in adopting the PSR’s loss amount of $145,849.78.
Scher, 601 F.3d at 414.
B. Sentences
Charles and Linda both argue that their sentences
were substantively unreasonable or otherwise
defective. Neither Charles nor Linda objected to
their sentences in the proceedings below so their
claims on appeal are reviewed for plain error. See
United States v. Ruiz, 621 F.3d 390, 398 (5th Cir.
2010),
“A sentence within the Guidelines range is
presumptively reasonable, and this presumption is
rebutted only if the appellant demonstrates that the
sentence does not account for a factor that should
receive significant weight, gives significant weight to
an irrelevant or improper factor, or represents a
clear error of judgment in balancing sentencing
factors.” United States v. Hernandez, 876 F.3d 161,
166 (5th Cir. 2017). On the other hand, “[a] nonGuidelines sentence unreasonably fails to reflect the
statutory sentencing factors set forth in § 3553(a)
where it (l) does not account for a factor that should
have received significant weight, (2) gives significant
weight to an irrelevant or improper factor, or (3)
represents a clear error of judgment in balancing the
sentencing factors.” United States v. Nguyen, 854
F.3d 276, 283 (5th Cir. 2017). When “reviewing a
challenge to the length of a non-Guidelines sentence,
this court ‘may take the degree of variance into
account and consider the extent of a deviation from
the Guidelines.’” Id. We give ‘“due deference to the

32a
district court’s decision that the § 3553(a) factors, on
a whole, justify the extent of the variance.’” Id.
(quoting Gall v. United States, 552 U.S. 38, 51
(2007)).
Charles argues that his sentence was substantively
unreasonable or otherwise defective and that the
district court’s upward variance was not warranted.
This argument fails. The district court based the
upward variance on relevant § 3553(a) factors,
including Charles’s history and characteristics
(specifically his theft of food from the FCSO
detention center) and the need to deter future
criminal conduct. See 18 U.S.C. § 3553(a)(l)-(2).
The district court was within its discretion to use the
food theft as a basis for an upward variance because
it was admitted as relevant conduct in the PSR and
was not established to be materially untrue,
inaccurate or unreliable. See U.S.S.G. § 1B1.3(a)(2);
United States v. Zuniga, 720 F.3d 587, 591 (5th Cir.
2013). As the government further points out, the
district court was permitted to consider the food
theft in the context of the upward variance even it
was determined not to be relevant conduct. United
States v. Rhine, 637 F.3d 525, 528-29 (5th Cir.
2011). Moreover, contrary to Charles’s assertion, the
record reveals that the district court explained that
it was imposing the upward variance because,
among other reasons, “[t]here was a culture of
corruption in the Forrest County Jail, and [Charles]
knew it and . . . allowed it to go on.” For these
reasons, Charles has failed to show that the district
court plainly erred in imposing his sentence or in
applying the sentencing factors under § 3553(a).
Nguyen, 854 F.3d at 283. His remaining contentions

33a
on this issue are denied as meritless.
Linda claims that her sentence was substantively
unreasonable because the loss amount was an
inadequate measure of culpability and the district
court failed to consider other relevant sentencing
factors such as her age and the fact that she had
“nearly zero chance of recidivism.” Her argument is
misplaced. This court has acknowledged that “[a]
sentence within the Guidelines range is
presumptively reasonable, and this presumption is
rebutted only if the appellant demonstrates that the
sentence does not account for a factor that should
receive significant weight, gives significant weight to
an irrelevant or improper factor, or represents a
clear error of judgment in balancing sentencing
factors.” See Hernandez, 876 F.3d at 166. Although
Linda attempts to argue that the total loss amount
was an inadequate measure of her culpability, she
was convicted by a jury on five counts of filing false
tax returns and she was unable to present evidence
to rebut the loss amount as shown in the PSR or to
prove that it “was inaccurate or materially untrue "
in general or as it related specifically to her. Scher,
601 F.3d at 414. While Linda’s age and allegedly
low chances of recidivism might be relevant
considerations, the district court was free to give
other § 3553(a) factors more significant weight in
imposing her sentence. 18 U.S.C. § 3553(a).
Accordingly, Linda has failed to rebut the
presumption of reasonableness afforded to her
within-guidelines sentence. United States v. GomezHerrera, 523 F.3d 554, 565—66 (5th Cir. 2008) (“As
[the defendant] was sentenced within a properly
calculated Guidelines range, his sentence is entitled

34a
to a presumption of reasonableness that we see no
reason to disturb.”). Consequently, we hold that the
district court did not plainly err in imposing Linda’s
sentence. See Ruiz, 621 F.3d at 398.
C. Restitution
Charles argues that the district court erred in
imposing restitution. We review Charles’s claim that
the district court lacked the authority to impose
restitution de novo. See United States v.
Westbrooks, 858 F.3d 317, 327 (5th Cir. 2017). We
review the restitution amount imposed by the
district court for abuse of discretion. United States v.
Benns, 810 F.3d 327, 329 (5th Cir. 2016).
“Restitution to the IRS may be imposed as a
condition of supervised release under § 3583[.]”
Nolen, 472 F.3d at 382. To calculate the restitution
amount, the district court is granted wide latitude
and “may simply make a reasonable estimate based
on the available facts.” Westbrooks, 858 F.3d at 329.
Nevertheless, “a restitution award due prior to the
commencement of a term of supervised release is a
component of the sentence, not a condition of
supervised release,” and is therefore unauthorized.
Id. at 328.
Charles’s general challenge to the district court’s
authority to impose restitution fails as it is wellestablished that “[destitution to the IRS may be
imposed as a condition of supervised release under §
3583U” Nolen, 472 F.3d at 382. However, he does
correctly argue and the government concedes that “a
restitution award due prior to the commencement of

35a
a term of supervised release is a component of the
sentence, not a condition of supervised release,” and
is therefore unauthorized. Westbrooks, 858 F.3d at
328. Here, the district court’s condition that the
restitution amount was due “immediately”6 was
unauthorized under this court’s precedent in
Westbrooks. Id. at 328 (“We thus conclude that the
judgment contains an error in ordering that [the
defendant] begin making payments while in prison—
a timeline that exceeds the court’s statutory
authority. But that error does not overcome the
other indications that the court intended to impose
restitution under the statute permitting it as part of
supervised release.”). Accordingly, we modify the
judgment to reflect that the Boltons do not owe
restitution until their terms of supervised release
begin. Id. (“The most efficient remedy in this
situation is to modify the judgment so that [the
defendant] does not owe restitution until she begins
her term of supervised release.” (citing 28 U.S.C. §
2106)).
Finally, as to the amount of restitution, this court
gives the district court “wide latitude” to determine
the amount of loss based on the available facts.
Westbrooks, 858 F.3d at 329. Because the district
court used the same figures to calculate the
restitution amount that it used to calculate the
damages amount, Charles has failed to show that
the restitution award was an abuse of discretion.
See Scher, 601 F.3d at 414. All of his remaining
6 The district court stated at sentencing: “It is ordered that the
defendant pay a thousand dollars a month toward the
restitution beginning immediately. Payment begins and shall
continue while he is in prison.”

36a
arguments on this issue are meritless.
Conflict-Free Choice of Counsel or Ineffective
Assistance of Counsel
Charles claims that his trial counsel (Owen) “labored
under an actual conflict of interest and provided
unconstitutional representation before trial, during
trial, and at sentencing because of a direct conflict of
interest concerning Owen’s relationship to attorney
John Lee.” Charles presented his allegations of
conflict of counsel and ineffective assistance of
counsel in three separate post-trial motions, all three
of which moved for a new trial.
A district court’s denial of a motion for a new trial is
reviewed for abuse of discretion. Olibas v. Barclay,
838 F.3d 442, 448 (5th Cir. 2016). “This standard is
necessarily deferential to the trial court because we
have only read the record, and have not seen the
impact of the witnesses on the jury or observed the
demeanor of the witnesses ourselves, as has the trial
judge.” United States v. Stanford, 823 F.3d 814, 838
(5th Cir. 2016). Questions of law are reviewed de
novo. United States v. Anderson, 755 F.3d 782, 800
(5th Cir. 2014). When there are mixed questions of
law and fact, this court reviews “the underlying facts
for abuse of discretion, but the conclusions to be
drawn from those facts de novo.” Stanford, 823 F.3d
at 838.
Whether a defendant’s counsel labored under a
conflict of interest is a mixed question of law and
fact that this court reviews de novo. United States v.
Hernandez, 690 F.3d 613, 619 (5th Cir. 2012). We

37a
also conduct a de novo review of the district court’s
determinations concerning ineffective assistance of
counsel claims. See United States v. Shepherd, 880
F.3d 734, 740 (5th Cir. 2018). A district court’s
decision to disallow substitution of counsel is
reviewed for abuse of discretion. United States v.
Jones, 733 F.3d 574, 587 (5th Cir. 2013). Although
generally disfavored, a new trial may be granted on
the basis of newly discovered evidence when “(l) the
evidence is newly discovered and was unknown to
the defendant at the time of trial; (2) the failure to
detect the evidence was not due to a lack of diligence
by the defendant; (3) the evidence is not merely
cumulative or impeaching! (4) the evidence is
material! and (5) the evidence if introduced at a new
trial would probably produce an acquittal.”
Anderson, 755 F.3d at 800; Fed. R. Crim. P. 33.
“The Sixth Amendment right to counsel includes the
‘right to representation that is free from any conflict
of interest.’” Hernandez, 690 F.3d at 618. Generally,
this court will determine that “a conflict exists when
defense counsel allows a situation to arise that
tempts a division in counsel’s loyalties.” Id. “If a
defendant chooses to proceed with representation by
counsel who has a conflict of interest, a district court
must conduct what is commonly known as a ‘ Garcia
hearing’7 to ensure a valid waiver by the defendant
of his Sixth Amendment right.” Id. A district court’s
requirement to conduct a Garcia hearing only exists
if there is an actual conflict of interest and not just a
“speculative or potential conflict.” Id. at 618-19.
7 United States v. Garcia, 517 F.2d 272, 278 (5th
Cir. 1975).

38a
Ineffective assistance of counsel claims are evaluated
under the legal standard articulated in Strickland v.
Washington, 466 U.S. 668 (1984). Under Strickland,
a defendant must prove both deficient performance
and prejudice. 466 U.S. at 700. To prove deficient
performance, the defendant must show that his
counsel’s performance “fell below an objective
standard of reasonableness.” Id. at 688. To show
prejudice, the defendant “must show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Id. at 694.
Charles’s claim that Owen labored under an actual
conflict of interest when he represented Charles is
meritless. In its memorandum opinion denying
Charles’s motions for post-trial relief, the district
court carefully described the payment arrangements
between Charles and Owen and the parties that paid
Owen’s retainer on Charles’s behalf and Charles’s
knowledge of those payments. The district court
clarified that Lee was not a government witness, he
was never called to testify at trial, and the parties
understood that if he were called, he would invoke
his Fifth Amendment privilege against self­
incrimination and not testify. Additionally, the
record reflects that Charles gave Owen a check
written by Lee to represent him in the food theft
case back in 2014, but the tax fraud investigation
against Lee did not commence until 2016.
Consequently, Owen’s acceptance of Lee’s payment
could not have created a conflict in Owen’s
representation of Charles. Moreover, as the district
court noted, Charles not only knew of Lee’s
payments to Owen, he hand-delivered the checks.

39a
He has failed to meet the requirements for a new
trial in that the evidence he attempts to use to
support his motion was known and available to him
several years prior to the commencement of his trial.
Anderson, 755 F.3d at 800! Fed. R. Crim. P. 33.
Charles has also failed to show that he was denied
his “counsel of choice” at sentencing. As the
government points out, neither the district court nor
Owen knew that Charles had retained new counsel
to represent him at sentencing until shortly before
the hearing. The district court was within its sound
discretion to deny Charles’s motion to continue as it
was his fourth motion. At that point, Huntley had
neither sought pro hac vice admission nor made an
appearance to represent Charles. Nevertheless, the
district court “allowed the Boltons to confer privately
with [Huntley], along with a representative of the
local Federal Public Defender’s Office invited by the
district court, to determine who should represent
[Charles]. Owen appeared at sentencing on behalf of
[Charles], but the district court allowed Huntley to
unofficially appear on [Charles]’s behalf as well.”
The district court went above and beyond to
accommodate Charles’s “choice of counsel” at
sentencing and his choice to instruct Owen to
continue to represent Charles alongside Huntley at
sentencing was not an abuse of discretion. See
United States v. Gonzalez-Lopez, 548 U.S. 140, 152
(2006) (observing that trial courts have “wide
latitude in balancing the right to counsel of choice
against the needs of fairness and against the
demands of its calendar”). Likewise, the district
court’s decision to deny Charles a Garcia hearing
was proper given that the district court conducted

40a
extensive fact-finding and concluded that no actual
conflict existed. Hernandez, 690 F.3d at 618-19
(noting that a district court’s requirement to conduct
a Garcia hearing only exists if there is an actual
conflict of interest and not just a “speculative or
potential conflict”). His remaining arguments on
this issue are denied as meritless.
Attorney-Client Privilege Waiver
Charles argues that his communications with Owen
should be protected by the attorney-client privilege,
that he did not waive that privilege, and that the
district court erred in granting the government’s
motion for reconsideration and unsealing the record.
He also complains that the district court did not
have jurisdiction over his case when it issued an
order on July 24, 2017 for him to file a response to
the government’s motion for reconsideration. He
argues that this is because he filed an appeal on July
13, 2017 and this court had accepted jurisdiction
which effectively divested the district court of
jurisdiction over the proceedings at the time it
ordered him to respond to the government’s motion.
“In evaluating a claim of attorney-client privilege,
we review factual findings for clear error and ‘the
application of the controlling law de novo.’” In re
Itron, Inc., 883 F.3d 553, 557 (5th Cir. 2018). The
controlling law to be applied here is that of
Mississippi, which governs . . . any assertion of
attorney-client privilege or putative waiver thereof.
Id. “Our task is to apply the law as would the
Mississippi Supreme Court.” Id. (citing Guilbeau v.
Hess Corp., 854 F.3d 310, 311 & n.4 (5th Cir. 2017)).
Mississippi law allows clients the “privilege to refuse

41a
to disclose . . . any confidential communication[s]
made to facilitate professional legal services, if those
communications were made between the client . . .
and [his] lawyer or among lawyers . . . representing
the same client.” Id. (citing Miss. R. Evid. 502(b)
(internal quotation marks omitted)).
“By definition, the attorney client privilege protects
only confidential communications.” Id. at 558 (citing
Miss. R. Evid. 502(b) (emphasis omitted)). A client
waives the privilege “[b]y disclosing such
communications to third parties—such as by
revealing them in open courtU” Id. The waiver
extends to related subject matter. Id. A client also
“waives the privilege by affirmatively relying on
attorney-client communications to support an
element of a legal claim or defense—thereby putting
those communications ‘at issue5 in the case.” Id.
That is to say, “when a party entitled to claim the
attorney-client privilege uses confidential
information against his adversary (the sword), he
implicitly waives its use protectively (the shield)
under that privilege.” Id.
The issue of whether Charles waived the attorneyclient privilege arose out of Owen’s filing a motion to
deem the privilege and the work-product doctrine
waived so that his responses to Charles’s allegations
could be filed in the public record. In June 2017, the
district court found that Charles had waived the
attorney-client privilege but ordered that Owen’s
responses to Charles’s allegations against him be
filed under seal until the conclusion of the Boltons’
convictions and sentences. However, in its order
placing Owen’s responses under seal, the district

42a
court acknowledged “that Charles has repeatedly]
used both this Court and the media in an attempt to
[publicly] vilify both Owen and the Government.”
The government filed a motion to reconsider
requesting that the responses be unsealed. Charles
was ordered to respond and the district court
ultimately granted the government’s motion for
reconsideration stating that “[t]he Court is
concerned only with previously privileged
information which could prejudice Bolton on appeal
or in the event of a new trial. Because Bolton makes
no specific arguments towards any of the previously
privileged information, the Court finds that the
Motion for Reconsideration should be granted.”
Charles then filed a second notice of appeal, No. 1760576, of the district court’s order granting the
motion for reconsideration and unsealing Owen’s
responses to Charles’s allegations against him.
Charles’s argument is unconvincing that the district
court was divested of jurisdiction when it ordered
him to file a response to the government’s motion for
reconsideration. The Supreme Court has held and
this court has recently recognized that “[a]n appeal
divests the district court of its jurisdiction ‘over
those aspects of the case involved in the appeal.’”
United States v. Pena, 713 F. App’x 271, 272 (5th
Cir. 2017) (per curiam) (unpublished) (quoting
Marrese v. Am. Acad, of Orthopaedic Surgeons, 470
U.S. 373, 379 (1985)). As Charles acknowledges, he
has filed two appeals^ (l) No. 17-60502, filed on July
13, 2017, pertaining to his convictions and sentences
and (2) No. 17-60576, filed August 2017, pertaining
to the district court’s grant of the motion for
reconsideration and the unsealing of Owen’s

43a
responses. The only appeal pending at the time the
district court issued its order to him to respond to
the government’s motion for reconsideration was No.
17-60502, the appeal pertaining to his convictions
and sentences. The district court had not been
divested of jurisdiction with respect to the issues
involved in Charles’s second appeal pertaining to his
allegations against Owen, waiver of the attorneyclient privilege, release of the work-product doctrine
information, and unsealing the record. Marrese, 470
U.S. at 379; Pena, 713 F. App’x at 272.
Next, under controlling Mississippi law, Charles
waived the attorney-client privilege when he charged
Owen with providing him with ineffective assistance
and further when he made public statements to
third parties via the media, social media, the court,
and the press, to publicly criticize and make
derogatory comments about Owen and his firm’s
representation of him. See In re Itron, Inc., 883 F.3d
at 558 (noting that a client waives the privilege “[b]y
disclosing such communications to third parties—
such as by revealing them in open court” and “by
affirmatively relying on attorney-client
communications to support an element of a legal
claim or defense—thereby putting those
communications ‘at issue’ in the case”). The district
court properly granted the government’s motion for
reconsideration to modify the protective order and
unseal Owen’s responses to Charles’s allegations.
See United States v. Morales, 807 F.3d 717, 723 (5th
Cir. 2015). His remaining arguments on this issue
are denied as meritless.
III. Conclusion

44a

For the foregoing reasons, we AFFIRM the
convictions and sentences of Charles and Linda
Bolton and MODIFY the district court’s judgment to
show that the restitution owed by the Boltons does
not become due until they begin their terms of
supervised release.

45a

Appendix B

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
Date Filed: 10/26/2018

NO. 17-60502

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
CHARLES BOLTON; LINDA BOLTON,
Defendants-Appellants

Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
CHARLES BOLTON,
Defendant-Appellant.

46a

Appeal From The United States District Court
For The Southern District of Mississippi

Before STEWART, Chief Judge, and WIENER and
HIGGINSON, Circuit Judges.
PER CURIAM
IT IS ORDERED that appellee’s opposed motion to
correct this court’s opinion issued October 23, 2018 is
GRANTED, i:

47a

Appendix C
Date Filed-10/23/2018
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 17-60502
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v

CHARLES BOLTON; LINDA BOLTON,
Defendants-Appellant.s
Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
V;

CHARLES BOLTON >

48a
Defendant-Appellant.

Appeal From The United States District Court
For The Southern District of Mississippi

Honorable Keith Starrett, District Judge

Before STEWART, Chief Judge, and WIENER and
HIGGINSON, Circuit Judges.
PER CURIAM
IT IS ORDERED that appellee’s opposed motion to
correct this court’s opinion is GRANTED.

49a

Appendix D
IN THE UNITED STATES COURT OF APPEALS
; FOR THE FIFTH CIRCUIT

No. 17-60502

D C. Docket No. 2:i6-CR-7-2

United States Court of
Appeals
Fifth Circuit
Filed
October 18, 2018
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA

Plaintiff - Appellee

LINDA BOLTON,
Defendant - Appellant

50a
Appeal from the United District Court for the
Southern District of Mississippi
Before STEWART, Chief Judge, and WIENER and
HIGGINSON, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is affirmed as modified

51a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-60502

D.C. Docket No. 2H6-CR^7-'2

United States Court of
Appeals
Fifth Circuit
Filed
October 18, 2018
Lyle W. Cayce
Clerk :

UNITED STATES OF AMERICA,

Plaintiff - Appellee

CHARLES BOLTON AND LINDA BOLTON,
Defendants — Appellants

Consolidated with 17-60576

52a
^ UNITED STATES OF AMERICA,
Plaintiff ;■ Appellee
CHARLES BOLTON
Defendant — Appellant

Appeal from the United District Court for the
Southern District of Mississippi
Before STEWART, Chief Judge, and WIENER and:
HIGGINSON, Circuit Judges.
CARL E. STEWART, Chief Judge :

No. 17-60502
c/w No. 17-60576
■ A grand jury indicted Plaintiffs-Appellants Charles
Bolton (“Charles”) and his wife, Linda Bolton
(“Linda”), on five counts of attempted tax evasion
and five counts of filing false tax returns. The jury
convicted Charles on four of the attempted tax

53a
evasion counts and all five counts of filing false tax
returns. The jury acquitted both Boltons on one of
the attempted tax evasion counts, failed to reach a
verdict as to Linda on the remaining attempted tax
evasion counts, and convicted Linda on all five
counts of filing false tax returns.
The district court sentenced Charles to 45 months of
imprisonment, imposed three years of supervised
release with a special condition requiring payment of
$145,849.78 in restitution and a $10,000 fine. The
district court sentenced Linda to 30 months of
imprisonment, with a one-year term of supervised
release, a $6,000 fine, and restitution of $145,849.78,
owed jointly and severally with Charles. Both
Charles and Linda appeal their convictions and
sentences. We affirm the Boltons’ convictions and
sentences in all respects except that we modify the
district court’s judgment to reflect that the
restitution owed by the Boltons is not due until their
terms of supervised release commence.
I. Facts & Procedural History
In 1992, Charles became chief deputy sheriff of the
Forrest County Sheriffs Office (“FCSO”) in
Hattiesburg, Mississippi. He was terminated from
the FCSO in 2016 after he was convicted in this
case. As chief deputy, he oversaw the Forrest
County Juvenile and Adult Detention Center. At
that time, he and his wife Linda also owned and
operated two businesses1, Hall Avenue Package
1 The Boltons’ businesses were Schedule C businesses which
are considered sole proprietorships. Taxes for Schedule C
businesses are reported on the owner’s personal income tax
return.

54a
Store and Sports 22 Cafe and Lounge.
In March 2014, the Federal Bureau of Investigation
(“FBI”) and the Mississippi State Auditor’s Office
began an investigation into whether the Boltons and
others were stealing food from the FCSO’s Detention
Center.2 In July 2015, the U.S. Attorney’s Office for
the Southern District of Mississippi received
approval to recuse itself from the investigation and
prosecution of Charles, and the matter was re­
assigned to the U.S. Attorney’s Office for the Eastern
District of Louisiana. Around that time, the FBI
referred several suspicious checks related to the
Boltons’ businesses to Internal Revenue Service
(“IRS”) Special Agent Bradley Luker who began a
criminal tax investigation to determine whether the
Boltons were guilty of violating any tax laws. Agent
Luker provided information about the criminal tax
investigation to Assistant United States Attorney
Fred Harper of the Eastern District of Louisiana
who had been assigned to Charles’s case.
A federal grand jury returned a ten-count indictment
in March 2016 charging the Boltons with attempted
tax evasion and aiding and abetting in attempted
tax evasion for the tax years 2009 through 2013, in
violation of 26 U.S.C. § 7201 and 18 U.S.C. § 2
(Counts 1-5), as well as filing false tax returns and
aiding and abetting in the filing of false tax returns
for tax years 2009 through 2013, in violation of 26
2 The 2014 food theft investigation did not result in charges
against the Boltons in the underlying proceedings but the
district court determined the incident to be relevant conduct for
purposes of sentencing and its calculation of the loss and
restitution amounts. See U.S.S.G. § 1B1.3.

55a
U.S.C. § 7206(1) and 18 U.S.C. § 2 (Counts 6-10).
After the Boltons were indicted, attorney Joe Sam
Owen (“Owen”) enlisted as counsel of record on
behalf of Charles. Linda was represented by several
different attorneys before trial, and by attorney
Robert McDuff at trial and sentencing.
Prior to trial, the government stated its intent to
introduce business records, checks, check registers,
and tax returns of an individual named John Lee
(“Lee”), who, through his law practice, Lee P.A., was
involved with the Boltons, as business or public
records. The government also subpoenaed Lee to
testify at trial, and Charles subpoenaed a large
number of checks from Lee’s law practice as well as
Lee’s casino gambling records.
Before trial, Lee hired attorney Rick Simmons who
moved to quash a subpoena by the government to
testify at trial on grounds that Lee would be
invoking his Fifth Amendment privilege against self­
incrimination. The district court denied the motion,
but the parties stipulated at the outset of trial that
Lee would not actually testify even if called.3 The
parties also stipulated that records or summaries of
records were admissible as business records, and the
Boltons stipulated to the authenticity of their
handwriting on various exhibits. The parties further
stipulated that Lee had invoked his Fifth
Amendment privilege, and the jury was instructed
that Lee would not be called as a witness.

3 The district court ruled that the Boltons could comment at
trial on Lee’s invocation of his Fifth Amendment privilege.

56a
The Boltons’ three-day jury trial began in September
2016. At trial, the government presented evidence
that the Boltons treated money received by their two
businesses as “loans” rather than “income” when
reporting their business income on their personal
income tax returns, prepared by Renee Moore
(“Moore”) of Nicholson and Company, thus falsely
reducing their tax liability. The deposits in question
included checks from various entities and
individuals, including Lee and Manheim Mississippi
Auto Auction.
The jury ultimately convicted Charles on four counts
of attempted tax evasion and all five counts of filing
false tax returns. The jury acquitted each Bolton on
one count of attempted tax evasion, failed to reach a
verdict as to Linda on the remaining attempted tax
evasion counts, and convicted Linda on all five
counts of filing false tax returns.
The presentence reports (“PSRs”) for Charles and
Linda described an interview (referred to as an “FBI
302”) of Lee by federal agents regarding checks he
had given to Charles. Linda moved for a new trial
based on an alleged discrepancy between the
information in the FBI 302 and the testimony of
Agent Luker. Linda also argued that the failure to
disclose the substance of the interview violated the
government’s discovery obligations and constituted a
Brady violation. Charles joined the motion. The
district court denied the new trial motion, finding no
discrepancy between Agent Luker’s trial testimony
and the information in the FBI 302.
Three days before sentencing, Charles’s attorney,

57a
Owen, advised the court that Charles had obtained
new counsel and that Charles would be complaining
about his (Owen’s) handling of the case. On the day
of sentencing, Charles sought to be represented by
new counsel, Willie J. Huntley, an out-of-state
attorney who said he would need more time to
review the case before being ready to proceed. The
district court declined to grant a continuance and
offered Charles the choice of being represented at
sentencing by Owen or by an attorney from the
Federal Public Defender’s Office. Ultimately,
Charles was represented at sentencing by Owen, and
Huntley was allowed to assist.
In sentencing Charles, the district court upwardly
varied from the guidelines range of 27 to 33 months,
imposing a 45-month term of imprisonment. The
variance was based on the district court’s finding
that he had stolen food inventory from the FCSO
Detention Center and used the food at his Sports 22
restaurant and catering business. The district court
also imposed three years of supervised release with a
special condition requiring payment of $145,849.78
in restitution and a $10,000 fine. Charles reported
to federal prison on May 3, 2017. He then moved the
district court for release pending appeal, which the
district court denied.4
After sentencing, Owen sought and received
permission to withdraw as counsel of record for
Charles. Three days after entry of the judgment,
4 This court denied Charles’s motion for release pending appeal
on August 7, 2017.

58a
Charles filed a notice of appeal, and also filed three
motions seeking a new trial or vacatur of his
conviction and sentence. Among numerous other
arguments, Charles argued that his representation
by Owen was paid for by Lee and was therefore
tainted by a conflict of interest. This court
remanded the case pursuant to Federal Rule of
Appellate Procedure 12.1(b) so that the district court
could rule on the motions, expressly declining to
retain jurisdiction.
Following remand, the district court issued an order
reviving the pending motions, setting briefing
deadlines, and ordering former counsel Owen and
McDuff to respond to various allegations of
ineffective assistance of counsel. The government
filed a consolidated response to all of the Boltons’
pending motions, as did Owen and McDuff. On July
3, 2017, the district court denied the new trial
motions. Charles noticed his appeal on July 12
(entered July 13), citing the district court’s July 3
new trial order. Linda noticed her appeal on July
13, also citing the district court’s July 3 new trial
order.
Owen asked the district court to deem the attorneyclient privilege and the work-product doctrine
waived so that he could respond to the Boltons’
allegations of conflict and ineffective assistance of
counsel. Charles objected and Owen noted that, in
multiple motions, he and his firm were accused of
harboring a conflict-of-interest and a litany of
instances of ineffective assistance. The government
supported the waiver. Charles then sought a
protective order, which Owen opposed, precluding

59a
the availability of the documents to the prosecution,
law enforcement, or the public. Owen identified the
claims against him as involving an alleged conflict
about Lee, trial preparation and use of an expert,
jury selection, trial strategy, exhibits, witnesses,
Linda’s decision not to testify, Charles’s decision not
to testify, Charles’s conviction, the PSR and
objections, the in-camera sentencing conference, the
sentencing hearing, and the post-sentencing
submissions under seal.
The district court acknowledged that Charles had
waived his attorney-client privilege and workproduct doctrine but determined that the documents
should be filed under seal and not served on the
government. The government moved for
reconsideration on grounds that it would need the
materials to respond to any appeal filed by Charles
and to defend against allegations of ineffective
assistance of counsel under 28 U.S.C. § 2255. The
district court granted the government’s motion and
placed Owen’s response to Charles’s new trial
motions on the public docket, finding that Charles
“did not point to a single piece of formerly privileged
evidence which would prejudice him either on appeal
or in the event of a new trial.” Charles noticed his
appeal of that order (appeal No. 17-60576).
Charles’s second appeal, No. 17-60576, was
consolidated with the existing appeal of the Boltons’
convictions and sentences, No. 17-60502.
II. Discussion
The Boltons each raise a host of arguments on
appeal including but not limited to^ (l) whether the

60a
indictment was sufficient; (2) whether the evidence
was sufficient to support the Boltons’ convictions; (3)
whether one or more Brady violations took place in
the proceedings below; (4) whether the Boltons’
Confrontation Clause rights were violated; (5)
whether the government engaged in prosecutorial
misconduct during trial; (6) whether the district
court erred in its issuance of jury instructions; (7)
whether the district court erred in imposing the
Boltons’ sentences; (8) whether Charles was denied
his right to conflict-free choice of counsel or received
ineffective assistance of counsel; and (9) whether the
district court erred in holding that Charles waived
his attorney-client privilege. We address each issue
in turn.
Indictment
Charles argues that his indictment was insufficient.
Because Charles failed to preserve his objection to
the alleged defective indictment, plain error review
applies. United States v. Robinson, 367 F.3d 278,
285 (5th Cir. 2004). “Plain error exists if (l) there is
an error, (2) the error is plain, ... (3) the error
affectts] substantial rights and (4) the error seriously
affectts] the fairness, integrity or public reputation
of judicial proceedings.” United States v. GarciaCarrillo, 749 F.3d 376, 378 (5th Cir. 2014) (per
curiam) (internal quotation marks and citation
omitted).
“An indictment is legally sufficient if (l) ‘each count
contains the essential elements of the offense
charged,’ (2) ‘the elements are described with
particularity,’ and (3) ‘the charge is specific enough
to protect the defendant against a subsequent

61a
prosecution for the same offense.5” United States v.
Fairley, 880 F.3d 198, 206 (5th Cir. 2018) C“[T]he
validity of an indictment is governed by practical,
not technical considerations,5 and ‘[t]he basic
purpose behind an indictment is to inform a
defendant of the charge against him[.] 555).
The government charged five counts of attempted
tax evasion and aiding and abetting in attempted
tax evasion for the tax years 2009 through 2013 in
violation of 26 U.S.C. § 7201 and 18 U.S.C. § 2
(Counts 1-5), and five counts of filing false tax
returns and aiding and abetting in the filing of false
tax returns for the tax years 2009 through 2013 in
violation of 26 U.S.C. § 7206(l) and 18 U.S.C. § 2
(Counts 6-10).
A. Tax Evasion
“The elements of [§7201 tax evasion are]: (l)
willfulness, (2) existence of a tax deficiency; and (3)
an affirmative act constituting an evasion or
attempted evasion of the tax.” United States v.
Nolen, 472 F.3d 362, 377 (5th Cir. 2006). The
indictment charged that, for the tax evasion counts,
the Boltons “did willfully attempt to evade and
defeat a large part of the income tax due and owing
by defendants to the United States of America by,
among other things, preparing and causing to be
prepared, and by signing and causing to be signed, a
false and fraudulent joint U.S. Individual Income
Tax Return, Form 1040, on behalf of defendants,
which was filed with the Internal Revenue Service.”
The indictment further alleged that the Boltons
attempted to evade and evaded the assessment of

62a
their income taxes by cashing tens of thousands of
dollars in checks purportedly issued in payment for
liquor, wine, and catering services to prevent those
payments from being recorded on their business
bank statements; providing deceptive records to
their tax return preparer; and making false
statements to their tax return preparer that some
payments for goods and services were loans. When
compared to the elements required to prove tax
evasion under § 7201, the indictment was sufficient
in that it alleged with specificity the affirmative acts
willfully taken by the Boltons to evade the tax they
knew they owed, provided the Boltons notice of the
alleged crime, and protected them from subsequent
prosecution for the same crime. Fairley, 880 F.3d at
206.
B. Filing False Tax Returns
“A person commits the felony of filing a false tax
return in violation of 26 U.S.C. § 7206(l) when he
‘willfully makes and subscribes any return,
statement, or other document, which contains or is
verified by a written declaration that it is made
under the penalties of perjury, and which he does
not believe to be true and correct as to every
material matter.’” United States v. Bishop, 264 F.3d
535, 546 (5th Cir. 2001) (quoting 26 U.S.C. §
7206(1)).
The indictment alleged that the Boltons “did
willfully make and subscribe to a joint United States
Income Tax Return, Form 1040, which was verified
by a written declaration that it was made under
penalty of perjury and was filed with the Internal

63a
Revenue Service [which] defendants herein did not
believe to be true and correct as to every material
matter for each calendar tax year noted [20092013]” in that they knew and believed they had
failed to report a substantial amount of income on
Line 22 of the Form.
Viewing the language of the indictment against the
elements required to prove the crime of filing a false
tax return, the indictment was sufficient in that it
alleged with specificity the Boltons’ falsification of
the tax returns, provided the Boltons notice of the
alleged crime, and protected the Boltons from
subsequent prosecution for the same crime. Fairley,
880 F.3d at 206. Accordingly, Charles failed to show
plain error with respect to the sufficiency of the
indictments for tax evasion and filing false tax
returns. Garcia-Carrillo, 749 F.3d at 378. In light of
this holding, we do not reach Charles’s alternative
arguments as to the alleged insufficiency or
defectiveness of the indictment.
Sufficiency of the Evidence
Both Charles and Linda argue that the evidence was
insufficient to support the jury’s verdicts of guilt
against them as to the crimes of tax evasion
(Charles) and filing false tax returns (Charles and
Linda). The Boltons preserved their challenges to
the sufficiency of the evidence by moving for and
renewing their motions for a judgment of acquittal.
Accordingly, “[w]e review preserved challenges to the
sufficiency of the evidence de novo, but we are
‘highly deferential to the verdict.’” United States v.
Scott, 892 F.3d 791, 796 (5th Cir. 2018).

64a

“When reviewing the sufficiency of the evidence, we
view all evidence, whether circumstantial or direct,
in the light most favorable to the government, with
all reasonable inferences and credibility choices to be
made in support of the jury’s verdict.” Id. It is the
province of the jury to “weigh any conflicting
evidence and to evaluate the credibility of
witnesses.” Id. at 796—97. We consider the evidence
“sufficient to support a conviction if ‘any rational
trier of fact could have found the essential elements
of the crime beyond a reasonable doubt.’” Id. at 797.
Our question is whether “the jury’s verdict was
reasonable, not whether we believe it to be correct.”
Id.
The jury convicted Charles on four of the five counts
of tax evasion. Linda was not convicted of tax
evasion. 26 U.S.C. § 7201 provides that “[a]ny
person who willfully attempts in any manner to
evade or defeat any tax imposed by this title or the
payment thereof shall... be guilty of a felonyU”
“The elements of [§ 7201 tax evasion are]: (l)
willfulness, (2) existence of a tax deficiency; and (3)
an affirmative act constituting an evasion or
attempted evasion of the tax.” Nolen, 472 F.3d at
377. “Affirmative acts that satisfy the [third]
element may include keeping double sets of books,
concealment of assets, or ‘any conduct, the likely
effect of which would be to mislead or to conceal.’”
United States v. Miller, 588 F.3d 897, 907 (5th Cir.
2009). To prove willfulness “the government must
show that: (l) the law imposed a duty on the
defendant; (2) the defendant knew of that duty; and
(3) the defendant voluntarily and intentionally

65a
violated that duty.” Id. “Such evidence is ordinarily
circumstantial, since direct proof is often
unavailable.” United States v. Kim, 884 F.2d 189,
192 (5th Cir. 1989). To prove a tax deficiency the
government must establish that the taxpayer had
unreported taxable income. United States v.
Conaway, 11 F.3d 40, 43 (5th Cir. 1993).
The jury convicted both Charles and Linda of five
counts of filing false tax returns, or aiding and
abetting in filing false tax returns, for the years of
2009 through 2013. A person commits the felony of
filing a false tax return in violation of 26 U.S.C. §
7206(1) when he “[wjillfully makes and subscribes
any return, statement, or other document, which
contains or is verified by a written declaration that it
is made under the penalties of perjury, and which he
does not believe to be true and correct as to every
material matter!.]”
At the Boltons’ trial, the government presented
sufficient evidence that Charles evaded taxes for the
years 2010 through 2013 and that the Boltons filed
false tax returns in which they consistently
underreported their income from 2009 through 2013.
The government’s evidence included numerous
instances when the Boltons (l) cashed a significant
number of checks before they were recorded in the
Boltons’ financial books, and (2) designated
significant amounts of income as non-taxable loans.
Agent Luker testified at trial that he had traced the
income derived from the cashed checks and the
checks marked as loans in the Boltons’ records and
concluded that they had a tax deficiency resulting
from underreporting their income from their two

66a
businesses. Agent Luker used a multitude of specific
examples of the checks marked as loans and the
checks that were cashed before they “hit the books”
to illuminate the discrepancy between the Boltons’
actual income and their reported income. The
government also presented a number of charts at
trial which featured year-by-year summary
computations of the Boltons’ “reported” versus their
“corrected” taxable income resulting from cashed
checks and checks marked as loans.
Consequently, given this court’s high level of
deference to the jury’s verdict and the mountain of
evidence presented at trial in support of the jury’s
verdict, specifically proving the elements of tax
evasion as to Charles and filing false returns as to
both Charles and Linda, we hold that the evidence
was sufficient to support the Boltons’ convictions.
Scott, 892 F.3d at 796-97. In light of this holding,
we do not reach either Charles’s or Linda’s
alternative arguments as to the alleged insufficiency
of the evidence.
Alleged Brady Violations
The Boltons contend that the Brady material
suppressed by the government includes^ (l) a
Department of Justice memorandum dated July 29,
2015, (2) an FBI 302 interview report documenting
Lee’s statements to law enforcement that allegedly
contradict the trial testimony of Agent Luker, (3) a
subpoena issued by the government to Carl
Nicholson (“Nicholson”), and (4) Lee’s plea
agreement. “We review a district court’s
determination on a Brady claim de novo, though we

67a
defer to factual findings underlying the district
court’s decision.” United States v. Swenson, 894 F.3d
677, 683 (5th Cir. 2018) (citing United States v.
Cessa, 861 F.3d 121, 128 (5th Cir. 2017)).
Under Brady, “the government violates a defendant’s
due process rights if it withholds evidence that is
favorable to the accused and material to the
defendant’s guilt or punishment.” Swenson, 894
F.3d at 683 (citing Brady v. Maryland, 373 U.S. 83,
87 (1963)). The rule is applied regardless “of the
good faith or bad faith of the prosecution . . . [and]
extends to impeachment evidence as well as
exculpatory evidence.” Id. (citing Youngblood v.
West Virginia, 547 U.S. 867, 869 (2006); Brady 373
U.S. at 87). For a defendant to prevail on a Brady
claim, he “must show: (l) the evidence at issue was
favorable to the accused, either because it was
exculpatory or impeaching! (2) the evidence was
suppressed by the prosecution! and (3) the evidence
was material.” Id. The usual remedy for a Brady
violation is a new trial. Swenson, 894 F.3d at 684.
The Boltons fail to make a successful argument on
any of their purported Brady claims. With respect to
Charles’s argument regarding the DOJ
memorandum dated July 29, 2015, that memo
simply addressed conflicts within the US Attorney’s
Office, Mississippi division, and authorized transfer
to the US Attorney’s Office, Louisiana division. This
subject matter has no bearing on Agent Luker’s
status as an IRS agent within the Department of
Treasury. Moreover, the recusal information of the
Mississippi division of the US Attorney’s Office is
immaterial to Charles’s ability to “prepare a proper
defense against the indictment” for his own crimes of

68a
tax evasion and filing false tax returns. Accordingly,
the memorandum does not qualify as Brady
material. Swenson, 894 F.3d at 683.
Both Charles and Linda argue that the FBI 302
interview report, which documents Lee’s statements
to law enforcement that allegedly contradict Agent
Luker’s trial testimony, was improperly suppressed
Brady material. They claim that they would have
used Lee’s statements in the interview that he could
not remember what each and every check he wrote
to the Boltons’ businesses was for to contradict
Agent Luker’s testimony that Lee told him that the
checks were written for food and liquor. As the
district court properly observed, Lee’s statements did
not go to the truth of Agent Luker’s testimony or to
his own credibility because they were intended to
highlight the suspicious nature of all the money
going from Lee’s firm to the Boltons’ restaurant
under the auspices of purchasing “business
supplies”; they were not solicited to disprove Agent
Luker’s testimony that Lee had told him that the
checks were written for food and liquor. United
States v. St. Junius, 739 F.3d 193, 202 (5th Cir.
2013) (“Under Federal Rule of Evidence 801(c),
hearsay is a statement, other than one made by the
declarant while testifying at trial or a hearing,
offered in evidence to prove the truth of the matter
asserted . . . The rule against hearsay does not apply
when an out-of-court statement is offered for some
purpose other than to prove the truth of the matter
asserted.”). Moreover, Lee’s statement to Agent
Luker that the checks were written for food and
liquor does not contradict or undermine his
statement in the FBI 302 interview that he could not

69a
remember what each individual check was for when
he was shown a spreadsheet of payments at a later
date. It is certainly conceivable that Lee stood by his
story that all of the checks were written either for
food or liquor without claiming to remember what
each specific check was written for. Further, the
government did not withhold the report from the
Boltons! it was turned over as required Jencks5
material. Thus it did not qualify as Brady material.
Swenson, 894 F.3d at 683.
Charles argues that the subpoena issued by the
government to Nicholson was improperly suppressed
Brady material because it “addressed the nature of
certain checks that were written from John Lee to
Joe Sam Owen and provided written
acknowledgement of those checks.” As the
government observes, however, Charles’s argument
on this issue goes to the purported conflict of interest
that he believed his attorney had—not to his own
defense of the charges against him for tax evasion
and filing false tax returns. Accordingly, the
subpoena was immaterial and neither exculpatory
nor impeaching. Thus, it did not qualify as Brady
material. Swenson, 894 F.3d at 683.
Finally, Charles fails to brief his argument that
Lee’s plea agreement was improperly suppressed
Bramaterial and thus has waived the issue. See
Procter & Gamble Co. v. Am way Corp., 376 F.3d 496,
499 n.l (5th Cir. 2004) (“Failure [to] adequately 0

5 18U.S.C. § 3500.

70a
brief an issue on appeal constitutes waiver of that
argument.”). In any event, the plea agreement was
signed after the Boltons were tried and convicted
and thus could not have conceivably qualified as
Brady material. Swenson, 894 F.3d at 683.
Confrontation Clause Rights
Both Charles and Linda argue that their
Confrontation Clause rights were violated when
Agent Luker was permitted to testify as to out-ofcourt statements that Lee had made to him since
Lee was not available for cross-examination at trial
given his invocation of the Fifth Amendment right
against self-incrimination. “Alleged Confrontation
Clause violations are reviewed de novo and subject
to harmless error analysis.” United States v. Garcia,
887 F.3d 205, 209 (5th Cir. 2018). However, “[a]
defendant may not complain on appeal of errors that
he himself invited or provoked the [district] court. . .
to commit.” United States v. Salazar, 751 F.3d 326,
332 (5th Cir. 2014) (citing United States v. Wells,
519 U.S. 482, 487-88 (1997)). Only errors attributed
to the actions of the defense will be considered
invited errors. Id. The standard of review for invited
error is higher than that of plain error x'eview. Id.
“We will not reverse on the basis of invited error,
absent manifest injustice.” Id.
“The Confrontation Clause guarantees a defendant
the opportunity for effective cross-examination.”
United States v. Lockhart, 844 F.3d 501, 510 (5th
Cir. 2016) (citing Delaware v. Fensterer, 474 U.S. 15
19-20 (1985)). The Supreme Court has held “that
the prosecution violates this clause when it

71a
introduces ‘testimonial statements of a witness who
did not appear at trial unless he was unavailable to
testify, and the defendant had had a prior
opportunity for cross-examination.’” Garcia, 887 F.3d
at 212 (quoting Crawford v. Washington, 541 U.S.
36, 53-54 (2004)).
During the trial, the district court ruled that the
government could not elicit testimony concerning
Lee’s out-of-court statements on grounds that Lee
was unavailable to be cross-examined because he
had asserted his Fifth Amendment privilege against
self-incrimination and would not testify at trial. The
district court ruled that any out-of-court statement
by Lee would be considered hearsay without an
applicable exception. The record reflects that the
government did not question Agent Luker or anyone
else about the content of any out-of-court statement
by Lee. However, during Owen’s cross-examination
of Agent Luker, he asked Luker to “[t]ell the jury,
please, what business supply John Lee purchased
from Sports 22.” The district court interrupted and
suggested that the solicited testimony would be
inadmissible hearsay and a bench conference was
held with all counsel. Outside of the presence of the
jury, both defense counsel urged the court to allow
the line of questioning and acknowledged that Agent
Luker’s answers would involve statements that Lee
had made to him. The bench conference ended and
Owen stated to Agent Luker: “So if I understand
your testimony, what John Lee has told you with
reference to the cashed checks is that he bought
$273,520 worth of food and liquor from Sports 22
and Hall’s Package.” Agent Luker responded, “Over
the five years, that’s correct.” Owen commented

72a
“You will agree that’s a lot of ribs, isn’t it?” and
Agent Luker answered affirmatively.
Given the above record evidence, we conclude that
the Boltons, through their counsel, invited the error
of soliciting Agent Luker to testify as to statements
that Lee made, resulting in the admission of
hearsay. Salazar, 751 F.3d at 332. Considering,
however, the substantial amount of evidence
presented at trial against the Boltons that did not
include the checks written by Lee, admission of the
hearsay statements did not result in a “manifest
injustice.” Id.
Charles claims he dissented from Owen’s decision to
solicit the hearsay statements but he misinterprets
the law on this issue. As the government points out,
the right to confrontation is susceptible to waiver by
counsel but when a defendant does not object to his
attorney’s decision at trial or present an argument
as to why his counsel’s actions could not have been a
legitimate trial tactic, he waives that right. United
States v. Ceballos, 789 F.3d 607, 616 (5th Cir. 2015)
(quoting United States v. Reveles, 190 F.3d 678, 683
(5th Cir. 1999) (“When a defendant has waived a
right, the district court cannot be said to have erred
by failing to override the intentions of the
defendant’s counselby asserting the right sua
sponte.” (emphasis in original))); see also United
States v. Stephens, 609 F.2d 230, 232-33 (5th Cir.
1980) (holding “that counsel in a criminal case may
waive his client’s Sixth Amendment right of
confrontation by stipulating to the admission of
evidence, so long as the defendant does not dissent
from his attorney’s decision, and so long as it can be
said that the attorney’s decision was a legitimate

73a
trial tactic or part of a prudent trial strategy”).
Here, the Boltons have failed in both respects since
they did not object to their respective counsels’
decisions to solicit the hearsay statements at trial,
and they have failed to present any type of argument
on appeal as to why admission of the statements
could not have been a legitimate trial tactic.
Ceballos, 789 F.3d at 616.
Based on a close review of the trial record, we hold
that the district court’s admission of the hearsay
statements was invited error, solicited by both sets
of defense counsel. Salazar, 751 F.3d at 332. The
invited error did not rise to the level of manifest
injustice given the substantial evidence presented at
trial to support the Boltons’ convictions, aside from
the evidence involving the checks written by Lee. Id.
Further, to the extent they attempt to argue
otherwise, the Boltons have failed to show that they
have not waived their Confrontation Clause rights
under Ceballos. 789 F.3d at 616.
Prosecutorial Misconduct
According to Charles, “his Fifth and Fourteenth
Amendments rights to due process of law [were]
violated where the Government engaged in (l)
improper vouching for the credibility of its witnesses,
(2) making false statements to the jury, (3) engaging
in derogatory name calling, and (4) making improper
personal impressions.” He urges de novo review.
This court conducts a two-part analysis of
prosecutorial misconduct. United States v. Meza,
701 F.3d 411, 429 (5th Cir. 2012). First, we consider

74a
whether the prosecutor made an improper remark
and if so, we look next to see if the remark affected
the substantial rights of the defendant. Id.
Usually, we review the first question de novo and the
second for abuse of discretion. Id. We will conclude
that “a defendant’s substantial rights are affected
only where the error in question affected the
outcome of the district court proceedings.” Id. To
determine whether the error affected the outcome of
the proceedings, we must “assess (l) the magnitude
of the statement’s prejudice, (2) the effect of any
cautionary instructions given, and (3) the strength of
the evidence of the defendant’s guilt.” Id. However,
when a defendant fails to object contemporaneously
to the prosecutor’s allegedly improper statements,
we review his prosecutorial misconduct claims for
plain error. United States v. Bennett, 874 F.3d 236,
247 (5th Cir. 2017). Under this standard, a
defendant must show an error that is plain and
affects his substantial rights. Id. at 247—48. “If
these conditions are present, we may exercise our
discretion to correct the error if it ‘seriously affects
the fairness, integrity, or public reputation of
judicial proceedings.’” Id. at 248. “In attempting to
establish that a prosecutor’s improper comments
constitute reversible error, the criminal defendant
bears a substantial burden.” Id. at 247. This court
does “not lightly make the decision to overturn a
criminal conviction on the basis of a prosecutor’s
remarks alone.” Id. “We also presume that a jury
can and will follow an instruction that attorneys’
statements are not evidence, ‘unless there is an
overwhelming probability that the jury will be
unable to follow the instruction and there is a strong
probability that the effect is devastating.’” Id. Our

75a
ultimate question is “whether the prosecutor’s
remarks cast serious doubt on the correctness of the
jury’s verdict.” Id.
Despite the fervor of Charles’s claims of
prosecutorial misconduct, the trial record does not
support them. Moreover, the district court
instructed the jury at the start of trial that attorney
statements are not evidence, rendering any potential
prejudice harmless.6 Meza, 701 F.3d at 429.
Additionally, given the strength of the evidence
presented against the Boltons at trial, it is unlikely
that the verdict would have been different absent the
prosecutor’s remarks. Id. The prosecutor’s alleged
misconduct, even if proven, did not amount to error,
plain or otherwise. Bennett, 874 F.3d at 247—48.
Jury Instructions
According to Charles, “[t]he cumulative errors in the
indictment, jury instructions, jury verdict form and
response to jury notes violated [his] Fifth and
Fourteenth Amendment rights to due process and a
fair trial and resulted in faulty guilty verdicts and
sentences.” We disagree. A review of Charles’s
6 The district court stated1
The first step in the trial will be the opening statements. The
government in its opening statement will tell you about the
evidence which it intends to put before you so that you will
have an idea or a roadmap as to what the government's case is
going to be. Just as the indictment is not evidence, neither is
the opening statement evidence. Its purpose is only to help you
understand what the evidence will be and what the
government will try to prove.

76a
seven arguments on this issue in the context of the
record reveals that he has failed to show plain error
with respect to the indictment (for reasons
previously explained), the jury instructions, or the
jury verdict form. See Fairley, 880 F.3d at 208. We
first note that any instances when the district court
misstated an oral instruction were subsequently
cured by the correct written instructions that were
provided to the jury. Thus, he has failed to show
plain error on any of his arguments to this effect. Id.
We reject all of Charles’s additional claims about the
jury instructions as meritless.
Sentencing
In sentencing Charles, the district court upwardly
varied from the guidelines range of 27 to 33 months,
adding an additional 12 months for the unpaid taxes
on the FCSO food theft, and sentenced him to 45
months of imprisonment. The district court also
imposed three years of supervised release with a
special condition requiring payment of $145,849.78
in restitution and a $10,000 fine. The district court
sentenced Linda to 30 months of imprisonment,
along with one year’s supervised release, a $6,000
fine, and restitution of $145,849.78, owed jointly and
severally with Charles.
A. Loss Amount
Charles and Linda both argue that the district court
improperly calculated the loss amount. We disagree.
A district court’s loss calculation is a factual finding
that this court reviews for clear error. See Fairley,
880 F.3d at 215. The district court’s method of

77a
calculation is an application of the guidelines that
this court reviews de novo. Id. “[T]he guidelines
emphasize the deference that must be shown to the
sentencing judge, who is in a unique position to
assess the applicable loss, so this court need only
determine whether the district court made ‘a
reasonable estimate of the loss.’” Id. “Under the
Sentencing Guidelines, the base offense level for a
tax fraud offense derives from the amount of loss
that is the object of the offense.” United States v.
Johnson, 841 F.3d 299, 303 (5th Cir. 2016). If the
tax loss is uncertain, the district court is permitted
to “make a reasonable estimate based on the
available facts.” Id. “To prevail on an argument
that the district court’s calculation of tax loss was
clearly erroneous, a defendant must introduce
evidence to contradict or rebut the alleged improper
computation of the loss.” Id.
The district court may include tax losses in the total
loss computation that qualify as relevant conduct
under U.S.S.G. § 1B1.3, whether charged or not. See
United States v. Powell, 124 F.3d 655, 666 (5th Cir.
1997) (“[T]he facts of [the defendant’s] conduct make
clear that the district court did not clearly err in
deciding that the state tax evasion was part of [the
defendant’s] relevant conduct. It was therefore
proper for the district court, in calculating [the
defendant’s] sentence, to include the amount of state
fuel excise taxes evaded in the total ‘tax loss’ used to
determine [the defendant’s] base offense level.”).
“It is well established . . . that a ‘jury’s verdict of
acquittal does not prevent the sentencing court from
considering conduct underlying the acquitted charge

78a
so long as that conduct has been proved by a
preponderance of the evidence.” United States v.
Andradi, 309 F. App’x 891, 893 (5th Cir. 2009)
(quoting United States v. Watts, 519 U.S. 148, 157
(1997)).
Here, the district court’s total loss amount of
$145,849.78 (as reflected in the PSR) was based on
the tax owed as a result of the charged offenses
($117,369.84) and the estimated amount of tax that
the Boltons failed to pay ($28,479.94) on the food
stolen from the FCSO Detention Center that was
used at their businesses. Testimony was presented
at trial that the Boltons received approximately
$273,000 worth of checks from Lee as income.
Charles incorrectly argues that using the tax loss
amounts from the Lee checks was error because
“[t]he John Lee cashed checks were proven to be
false based on the ‘inadmissible hearsay’ testimony
of IRS Agent Luker.” As we have stated, Agent
Luker’s testimony that Lee told him that the checks
were for “food and liquor” does not negate Lee’s
statements in the FBI 302 interview that he could
not remember what each individual check was for.
Additionally, these statements do nothing to
undermine the information in the PSR or show that
it “was inaccurate or materially untrue.” United
States v. Scher, 601 F.3d 408, 414 (5th Cir. 2010)
(“[The defendant] simply failed to produce reliable
evidence supporting an alternate number or
demonstrating that the information in the PSR was
inaccurate or materially untrue.”).
Further, the district court properly included the
uncharged tax loss of $28,479.94 on grounds that the

79a
tax loss from the stolen food qualified as relevant
conduct. This conclusion was supported by witness
statements and detailed information in the PSR.
Powell, 124 F.3d at 664 (observing that relevant
conduct includes “all such acts and omissions that
were part of the same course of conduct or common
scheme or plan as the offense of conviction” (quoting
U.S.S.G. § 1B1.3(a)(2))).
Additionally, the district court’s inclusion of the loss
amount from Count 1 was proper. Charles’s
acquittal on Count 1 did not prevent the district
court from considering the conduct underlying the
acquitted charge as long as it was proven by a
preponderance of the evidence, which it was in this
case. Watts, 519 U.S. at 157; Andradi, 309 F. App’x
at 893. There was sufficient evidence presented at
trial to prove that the Boltons committed tax fraud
in 2009 and they were both convicted of filing false
returns that year.
In sum, because the Boltons have failed to produce
sufficient rebuttal evidence as to the loss amount,
the district court did not clearly err in adopting the
PSR’s loss amount of $145,849.78. Scher, 601 F.3d
at 414.
B. Sentences
Charles and Linda both argue that their sentences
were substantively unreasonable or otherwise
defective. Neither Charles nor Linda objected to
their sentences in the proceedings below so their
claims on appeal are reviewed for plain error. See
United States v. Ruiz, 621 F.3d 390, 398 (5th Cir.

80a
2010).
“A sentence within the Guidelines range is
presumptively reasonable, and this presumption is
rebutted only if the appellant demonstrates that the
sentence does not account for a factor that should
receive significant weight, gives significant weight to
an irrelevant or improper factor, or represents a
clear error of judgment in balancing sentencing
factors.” United States v. Hernandez, 876 F.3d 161,
166 (5th Cir. 2017). On the other hand, “[a] nonGuidelines sentence unreasonably fails to reflect the
statutory sentencing factors set forth in § 3553(a)
where it (l) does not account for a factor that should
have received significant weight, (2) gives significant
weight to an irrelevant or improper factor, or (3)
represents a clear error of judgment in balancing the
sentencing factors.” United States v. Nguyen, 854
F.3d 276, 283 (5th Cir. 2017). When “reviewing a
challenge to the length of a non-Guidelines sentence,
this court ‘may take the degree of variance into
account and consider the extent of a deviation from
the Guidelines.”’ Id. We give “‘due deference to the
district court’s decision that the § 3553(a) factors, on
a whole, justify the extent of the variance.’” Id.
(quoting Gall v. United States, 552 U.S. 38, 51
(2007)).
Charles argues that his sentence was substantively
unreasonable or otherwise defective and that the
district court’s upward variance was not warranted.
This argument fails. The district court based the
upward variance on relevant § 3553(a) factors,
including Charles’s history and characteristics
(specifically his theft of food from the FCSO

81a
detention center) and the need to deter future
criminal conduct. See 18 U.S.C. § 3553(a)(l)(2). The
district court was within its discretion to use the
food theft as a basis for an upward variance because
it was admitted as relevant conduct in the PSR and
was not established to be materially untrue,
inaccurate or unreliable. See U.S.S.G. § 1B1.3(a)(2);
United States v. Zuniga, 720 F.3d 587, 591 (5th Cir.
2013). As the government further points out, the
district court was permitted to consider the food
theft in the context of the upward variance even it
was determined not to be relevant conduct. United
States v. Rhine, 637 F.3d 525, 528-29 (5th Cir.
2011). Moreover, contrary to Charles’s assertion, the
record reveals that the district court explained that
it was imposing the upward variance because,
among other reasons, “[t]here was a culture of
corruption in the Forrest County Jail, and [Charles]
knew it and . . . allowed it to go on.” For these
reasons, Charles has failed to show that the district
court plainly erred in imposing his sentence or in
applying the sentencing factors under § 3553(a).
Nguyen, 854 F.3d at 283. His remaining contentions
on this issue are denied as meritless.
Linda claims that her sentence was substantively
unreasonable because the loss amount was an
inadequate measure of culpability and the district
court failed to consider other relevant sentencing
factors such as her age and the fact that she had
“nearly zero chance of recidivism.” Her argument is
misplaced. This court has acknowledged that “[a]
sentence within the Guidelines range is
presumptively reasonable, and this presumption is
rebutted only if the appellant demonstrates that the

82a
sentence does not account for a factor that should
receive significant weight, gives significant weight to
an irrelevant or improper factor, or represents a
clear error of judgment in balancing sentencing
factors.” See Hernandez, 876 F.3d at 166. Although
Linda attempts to argue that the total loss amount
was an inadequate measure of her culpability, she
was convicted by a jury on five counts of filing false
tax returns and she was unable to present evidence
to rebut the loss amount as shown in the PSR or to
prove that it “was inaccurate or materially untrue "
in general or as it related specifically to her. Scher,
601 F.3d at 414. While Linda’s age and allegedly
low chances of recidivism might be relevant
considerations, the district court was free to give
other § 3553(a) factors more significant weight in
imposing her sentence. 18 U.S.C. § 3553(a).
Accordingly, Linda has failed to rebut the
presumption of reasonableness afforded to her
within-guidelines sentence. United States v. GomezHerrera, 523 F.3d 554, 565-66 (5th Cir. 2008) (“As
[the defendant] was sentenced within a properly
calculated Guidelines range, his sentence is entitled
to a presumption of reasonableness that we see no
reason to disturb.”). Consequently, we hold that the
district court did not plainly err in imposing Linda’s
sentence. See Ruiz, 621 F.3d at 398.
C. Restitution
Charles argues that the district court erred in
imposing restitution. We review Charles’s claim that
the district court lacked the authority to impose
restitution de novo. See United States v.
Westbrooks, 858 F.3d 317, 327 (5th Cir. 2017). We

83a
review the restitution amount imposed by the
district court for abuse of discretion. United States v.
Benns, 810 F.3d 327, 329 (5th Cir. 2016).
“Restitution to the IRS may be imposed as a
condition of supervised release under § 3583[.]”
Nolen, 472 F.3d at 382. To calculate the restitution
amount, the district court is granted wide latitude
and “may simply make a reasonable estimate based
on the available facts.” Westbrooks, 858 F.3d at 329.
Nevertheless, “a restitution award due prior to the
commencement of a term of supervised release is a
component of the sentence, not a condition of
supervised release,” and is therefore unauthorized.
Id. at 328.
Charles’s general challenge to the district court’s
authority to impose restitution fails as it is wellestablished that “[restitution to the IRS may be
imposed as a condition of supervised release under §
3583[.]” Nolen, 472 F.3d at 382. However, he does
correctly argue and the government concedes that “a
restitution award due prior to the commencement of
a term of supervised release is a component of the
sentence, not a condition of supervised release,” and
is therefore unauthorized. Westbrooks, 858 F.3d at
328. Here, the district court’s condition that the
restitution amount was due “immediately”7 was
unauthorized under this court’s precedent in
Westbrooks. Id. at 328 (“We thus conclude that the
judgment contains an error in ordering that [the
7 The district court stated at sentencing1 “It’s ordered that the
defendant pay a thousand dollars a month toward the
restitution beginning immediately. Payment begins and shall
continue while he is in prison.”

84a
defendant] begin making payments while in prison—
a timeline that exceeds the court’s statutory
authority. But that error does not overcome the
other indications that the court intended to impose
restitution under the statute permitting it as part of
supervised release.”). Accordingly, we modify the
judgment to reflect that the Boltons do not owe
restitution until their terms of supervised release
begin. Id. (“The most efficient remedy in this
situation is to modify the judgment so that [the
defendant] does not owe restitution until she begins
her term of supervised release.” (citing 28 U.S.C. §
2106)).
Finally, as to the amount of restitution, this court
gives the district court “wide latitude” to determine
the amount of loss based on the available facts.
Westbrooks, 858 F.3d at 329. Because the district
court used the same figures to calculate the
restitution amount that it used to calculate the
damages amount, Charles has failed to show that
the restitution award was an abuse of discretion.
See Scher, 601 F.3d at 414. All of his remaining
arguments on this issue are meritless.
Conflict-Free Choice of Counsel or Ineffective
Assistance of Counsel
Charles claims that his trial counsel (Owen) “labored
under an actual conflict of interest and provided
unconstitutional representation before trial, during
trial, and at sentencing because of a direct conflict of
interest concerning Owen’s relationship to attorney
John Lee.” Charles presented his allegations of
conflict of counsel and ineffective assistance of

85a
counsel in three separate post-trial motions, all three
of which moved for a new trial.
A district court’s denial of a motion for a new trial is
reviewed for abuse of discretion. Olibas v. Barclay,
838 F.3d 442, 448 (5th Cir. 2016). “This standard is
necessarily deferential to the trial court because we
have only read the record, and have not seen the
impact of the witnesses on the jury or observed the
demeanor of the witnesses ourselves, as has the trial
judge.” United States v. Stanford, 823 F.3d 814, 838
(5th Cir. 2016). Questions of law are reviewed de
novo. United States v. Anderson, 755 F.3d 782, 800
(5th Cir. 2014). When there are mixed questions of
law and fact, this court reviews “the underlying facts
for abuse of discretion, but the conclusions to be
drawn from those facts de novo.” Stanford, 823 F.3d
at 838.
Whether a defendant’s counsel labored under a
conflict of interest is a mixed question of law and
fact that this court reviews de novo. United States v.
Hernandez, 690 F.3d 613, 619 (5th Cir. 2012). We
also conduct a de novo review of the district court’s
determinations concerning ineffective assistance of
counsel claims. See United States v. Shepherd, 880
F.3d 734, 740 (5th Cir. 2018). A district court’s
decision to disallow substitution of counsel is
reviewed for abuse of discretion. United States v.
Jones, 733 F.3d 574, 587 (5th Cir. 2013).
Although generally disfavored, a new trial may be
granted on the basis of newly discovered evidence
when “(l) the evidence is newly discovered and was
unknown to the defendant at the time of trial; (2) the

86a
failure to detect the evidence was not due to a lack of
diligence by the defendant; (3) the evidence is not
merely cumulative or impeaching; (4) the evidence is
material; and (5) the evidence if introduced at a new
trial would probably produce an acquittal.”
Anderson, 755 F.3d at 800; Fed. R. Crim. P. 33.
“The Sixth Amendment right to counsel includes the
‘right to representation that is free from any conflict
of interest.”’ Hernandez, 690 F.3d at 618. Generally,
this court will determine that “a conflict exists when
defense counsel allows a situation to arise that
tempts a division in counsel’s loyalties.” Id. “If a
defendant chooses to proceed with representation by
counsel who has a conflict of interest, a district court
must conduct what is commonly known as a ‘ Garcia
hearing’8 to ensure a valid waiver by the defendant
of his Sixth Amendment right.” Id. A district court’s
requirement to conduct a Garcia hearing only exists
if there is an actual conflict of interest and not just a
“speculative or potential conflict.” Id. at 618-19.
Ineffective assistance of counsel claims are evaluated
under the legal standard articulated in Strickland v.
Washington, 466 U.S. 668 (1984). Under Strickland,
a defendant must prove both deficient performance
and prejudice. 466 U.S. at 700. To prove deficient
performance, the defendant must show that his
counsel’s performance “fell below an objective
standard of reasonableness.” Id. at 688. To show
prejudice, the defendant “must show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
United States v. Garcia, 517 F.2d 272, 278 (5th Cir. 1975).

87a
would have been different.” Id. at 694.
Charles’s claim that Owen labored under an actual
conflict of interest when he represented Charles is
meritless. In its memorandum opinion denying
Charles’s motions for post-trial relief, the district
court carefully described the payment arrangements
between Charles and Owen and the parties that paid
Owen’s retainer on Charles’s behalf and Charles’s
knowledge of those payments. The district court
clarified that Lee was not a government witness, he
was never called to testify at trial, and the parties
understood that if he were called, he would invoke
his Fifth Amendment privilege against self­
incrimination and not testify. Additionally, the
record reflects that Charles gave Owen a check
written by Lee to represent him in the food theft
case back in 2014, but the tax fraud investigation
against Lee did not commence until 2016.
Consequently, Owen’s acceptance of Lee’s payment
could not have created a conflict in Owen’s
representation of Charles. Moreover, as the district
court noted, Charles not only knew of Lee’s
payments to Owen, he hand-delivered the checks.
He has failed to meet the requirements for a new
trial in that the evidence he attempts to use to
support his motion was known and available to him
several years prior to the commencement of his trial.
Anderson, 755 F.3d at 800; Fed. R. Crim. P. 33.
Charles has also failed to show that he was denied
his “counsel of choice” at sentencing. As the
government points out, neither the district court nor
Owen knew that Charles had retained new counsel
to represent him at sentencing until shortly before

88a
the hearing. The district court was within its sound
discretion to deny Charles’s motion to continue as it
was his fourth motion. At that point, Huntley had
neither sought pro hac vice admission nor made an
appearance to represent Charles. Nevertheless, the
district court “allowed the Boltons to confer privately
with [Huntley], along with a representative of the
local Federal Public Defender’s Office invited by the
district court, to determine who should represent
[Charles]. Owen appeared at sentencing on behalf of
[Charles], but the district court allowed Huntley to
unofficially appear on [Charles]’s behalf as well.”
The district court went above and beyond to
accommodate Charles’s “choice of counsel” at
sentencing and his choice to instruct Owen to
continue to represent Charles alongside Huntley at
sentencing was not an abuse of discretion. See
United States v. Gonzalez-Lopez, 548 U.S. 140, 152
(2006) (observing that trial courts have “wide
latitude in balancing the right to counsel of choice
against the needs of fairness and against the
demands of its calendar”). Likewise, the district
court’s decision to deny Charles a Garcia hearing
was proper given that the district court conducted
extensive fact-finding and concluded that no actual
conflict existed. Hernandez, 690 F.3d at 618-19
(noting that a district court’s requirement to conduct
a Garcia hearing only exists if there is an actual
conflict of interest and not just a “speculative or
potential conflict”). His remaining arguments on
this issue are denied as meritless.
Attorney Client Privilege Waiver
Charles argues that his communications with Owen

89a
should be protected by the attorney-client privilege,
that he did not waive that privilege, and that the
district court erred in granting the government’s
motion for reconsideration and unsealing the record.
He also complains that the district court did not
have jurisdiction over his case when it issued an
order on July 24, 2017 for him to file a response to
the government’s motion for reconsideration. He
argues that this is because he filed an appeal on July
13, 2017 and this court had accepted jurisdiction
which effectively divested the district court of
jurisdiction over the proceedings at the time it
ordered him to respond to the government’s motion.
“In evaluating a claim of attorney-client privilege,
we review factual findings for clear error and ‘the
application of the controlling law de novo.’” In re
Itron, Inc., 883 F.3d 553, 557 (5th Cir. 2018). The
controlling law to be applied here is that of
Mississippi, which governs . . . any assertion of
attorney-client privilege or putative waiver thereof.
Id. “Our task is to apply the law as would the
Mississippi Supreme Court.” Id. (citing Guilbeau v.
Hess Corp., 854 F.3d 310, 311 & n.4 (5th Cir. 2017)).
Mississippi law allows clients the “privilege to refuse
to disclose . . . any confidential communication[s]
made to facilitate professional legal services, if those
communications were made between the client . . .
and [his] lawyer or among lawyers . . . representing
the same client.” Id. (citing Miss. R. Evid. 502(b)
(internal quotation marks omitted)).
“By definition, the attorney-client privilege protects
only confidential communications.” Id. at 558 (citing
Miss. R. Evid. 502(b) (emphasis omitted)). A client
waives the privilege “[b]y disclosing such

90a
communications to third parties—such as by
revealing them in open court[.]” Id. The waiver
extends to related subject matter. Id. A client also
“waives the privilege by affirmatively relying on
attorney client communications to support an
element of a legal claim or defense—thereby putting
those communications ‘at issue’ in the case.” Id.
That is to say, “when a party entitled to claim the
attorney-client privilege uses confidential
information against his adversary (the sword), he
implicitly waives its use protectively (the shield)
under that privilege.” Id.
The issue of whether Charles waived the attorneyclient privilege arose out of Owen’s filing a motion to
deem the privilege and the work-product doctrine
waived so that his responses to Charles’s allegations
could be filed in the public record. In June 2017, the
district court found that Charles had waived the
attorney-client privilege but ordered that Owen’s
responses to Charles’s allegations against him be
filed under seal until the conclusion of the Boltons’
convictions and sentences. However, in its order
placing Owen’s responses under seal, the district
court acknowledged “that Charles has repeatedfty]
used both this Court and the media in an attempt to
[publicly] vilify both Owen and the Government.”
The government filed a motion to reconsider
requesting that the responses be unsealed. Charles
was ordered to respond and the district court
ultimately granted the government’s motion for
reconsideration stating that “[t]he Court is
concerned only with previously privileged
information which could prejudice Bolton on appeal
or in the event of a new trial. Because Bolton makes

91a
no specific arguments towards any of the previously
privileged information, the Court finds that the
Motion for Reconsideration should be granted.”
Charles then filed a second notice of appeal, No. 1760576, of the district court’s order granting the
motion for reconsideration and unsealing Owen’s
responses to Charles’s allegations against him.
Charles’s argument is unconvincing that the district
court was divested of jurisdiction when it ordered
him to file a response to the government’s motion for
reconsideration. The Supreme Court has held and
this court has recently recognized that “[a]n appeal
divests the district court of its jurisdiction ‘over
those aspects of the case involved in the appeal.’”
United States v. Pena, 713 F. App’x 271, 272 (5th
Cir. 2017) (per curiam) (unpublished) (quoting
Marrese v. Am. Acad, of Orthopaedic Surgeons, 470
U.S. 373, 379 (1985)). As Charles acknowledges, he
has filed two appeals^ (l) No. 17-60502, filed on July
13, 2017, pertaining to his convictions and sentences
and (2) No. 17-60576, filed August 2017, pertaining
to the district court’s grant of the motion for
reconsideration and the unsealing of Owen’s
responses. The only appeal pending at the time the
district court issued its order to him to respond to
the government’s motion for reconsideration was No.
17-60502, the appeal pertaining to his convictions
and sentences. The district court had not been
divested of jurisdiction with respect to the issues
involved in Charles’s second appeal pertaining to his
allegations against Owen, waiver of the attorneyclient privilege, release of the work-product doctrine
information, and unsealing the record. Marrese, 470
U.S. at 379J Pena, 713 F. App’x at 272.

92a

Next, under controlling Mississippi law, Charles
waived the attorney-client privilege when he charged
Owen with providing him with ineffective assistance
and further when he made public statements to
third parties via the media, social media, the court,
and the press, to publicly criticize and make
derogatory comments about Owen and his firm’s
representation of him. See In re Itron, Inc., 883 F.3d
at 558 (noting that a client waives the privilege “[b]y
disclosing such communications to third parties—
such as by revealing them in open court” and “by
affirmatively relying on attorney-client
communications to support an element of a legal
claim or defense—thereby putting those
communications ‘at issue’ in the case”). The district
court properly granted the government’s motion for
reconsideration to modify the protective order and
unseal Owen’s responses to Charles’s allegations.
See United States v. Morales, 807 F.3d 717, 723 (5th
Cir. 2015). His remaining arguments on this issue
are denied as meritless.
III. Conclusion
For the foregoing reasons, we AFFIRM the
convictions and sentences of Charles and Linda
Bolton and MODIFY the district court’s judgment to
show that the restitution owed by the Boltons does
not become due until they begin their terms of
supervised release.

93a
Appendix E

IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF MISSISSIPPI
EASTERN DIVISION
UNITED STATES OF AMERICA
PLAINTIFF
VS.

CRIMINAL NO. 2:i6-CR-7-KS-MTP

CHARLES BOLTON AND LINDA BOLTON
DEFENDANTS
ORDER
Be it remembered that on November 29, 2016,
Objections to the Presentence Report of Linda Bolton
were delivered to the United States Probation Office
in Hattiesburg and that on November 30, 2016,
Objections to the Presentence Report of Charles
Bolton were delivered likewise. The Objections,
Supplements and Exhibits were accumulated by
Matthew Becker, U.S. Probation Officer and
forwarded to the Court by emails dated December 8,
2016. The original sentencing date set by the Court
for sentencing the Boltons was December 19, 2016.
The sentencing did not go forward that day, and at
the request of the defendants was continued.
Ultimately the sentencing of the defendants occurred
on March 17, 2017. The Presentence Reports were
made a part of the Court’s record and placed on the
docket but because of the length of time between the

94a
filing of the Objections and the sentencings, the
Objections were inadvertently omitted from the
record.
In order to make the record complete the Court
orders that the Objections to the Presentence Report
filed by Linda Bolton and supplement thereto
evidenced by three attachments to the email of Mr.
Becker dated December 8, 2016, be made a part of
record in this case. Additionally, the Court Orders
that the Objections of Charles Bolton together with
all exhibits therewith contained in eight PDF
documents attached to the email of Mr. Becker dated
December 8, 2016, be made a part of this record and
the emails and attachments attached to this Order.
SO ORDERED this the 28th day of June, 2017.
s/Keith Starrett
UNITED STATES DISTRICT JUDGE

95a
Objections to PSR investigation - Charles Bolton 2:l6cr7-l Matthew Becker to MSSDdb_Starret
Chambers 121081201610:49 AM
From: Matthew Becker/MSSP/05/USCOURTS To:
MSSDdb_Starret Chambers
MSSD/05/USCOURTS@USCOURTS History: This
message has been replied to.
Good morning Judge Starrett:
The objections and supporting information regarding
defendant Charles Bolton sent by his attorney of
record are attached to this email.
Objections to PSR.pdf EXHIBIT A.pdf EXHIBIT
B.pdf EXHIBIT C.pdf EXHIBIT D.pdf EXHIBIT
E.pdf EXHIBIT F.pdf supplement to objections to
PSR L. Bolton.pdf
If any further information is needed, please do not
hesitate to contact me at (228) 563-1875.
Sincerely,
Matthew A. Becker
U.S. Probation Officer

96a

Appendix F

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-60502

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
CHARLES BOLTON; LINDA BOLTON
Defendants - Appellants

Consolidated with 17-60576
UNITED STATES OF AMERICA
Plaintiff - Appellee
v
CHARLES BOLTON,
Defendant - Appellant

97a

Appeals from the United States District Court
for the Southern District of Mississippi

ON PETITION FOR REHEARING
Before STEWART, Chief Judge, and WIENER, and
HIGGINSON, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is
DENIED.

ENTERED FOR THE COURT:
Is/ Carl E. Stewart
UNITED STATES CIRCUIT JUDGE

Filed: December 7,: 2018

98a

Appendix G
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
Date Filed: 10/24/2018

NO. 17-60502

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
CHARLES BOLTON; LINDA BOLTON,
Defendants-Appellants.

Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff-App e lie e,
versus
CHARLES BOLTON,
Defendant-Appellant.
Appeal From The United States District Court
For The Southern District of Mississippi
Honorable Keith Starrett, District Judge

99a
Criminal Docket No. 16-CR-00007
MOTION TO CORRECT SUBSTITUTED
STATEMENT
The government respectfully requests that this
Court amend its substituted opinion and apologizes
for failing to sufficiently communicate the
problematic language in the first instance. As
discussed below, the government respectfully
suggests that the Court simply delete the sentence.
In its original opinion, on page 15, this Court stated:
Further, the government did not
withhold the report from the Boltons; it
was turned over as required Jencks 5
material.
518 U.S.C. § 3500.
The government understood this reference to the
“report” to mean the FBI 302, which was not turned
over to the Boltons. See ROA.17-60203.372 (district
court opinion stating, “The FBI report was not
turned over because it was not required to be turned
over, as it was not exculpatory or impeaching, nor
was it a statement of a testifying witness.”).
Yesterday, the government moved to correct the
reference in the Court’s opinion but apologizes for
failing to explain the problem sufficiently as, on page
15, the Court substituted the following language:

100a
Further, the government did not
withhold the report from the Boltons! it
voluntarily turned over the report
under Jencks.5
518 U.S.C. § 3500.
To be clear, the FBI 302 was not turned over either
voluntarily or as Jencks material.1 Rather, the
district court ruled that the FBI 302 was not Brady
material and denied discovery of the FBI 302.2
For simplicity’s sake, the government respectfully
suggests that the Court consider simply deleting the
sentence and footnote. Jeffrey M. Brandt, counsel for
defendant-appellant Linda Bolton, concurs in this
request for relief. Charles Bolton’s counsel did not
respond to the government’s email requesting his
position, although a representative from the office of
Ivan Bates stated yesterday that Charles Bolton did
not concur with the government’s initial motion to
correct the statement: “Charles Bolton does not
concur. The court’s opinion was based in part on this
erroneous fact, and it may have led to the court’s
ultimate conclusion.” Presumably, Mr. Bolton also

1 A description of Jencks materials given over pretrial is at
ROA. 17-60502.6675-76. As the government stated in its brief,
IRS Agent Bradley Luker testified, and his report was turned
over as Jencks. Gov. Br. at 60 (citing district court order at
ROA. 17-60502.372); see also ROA. 17-60502.6687-95 (Luker
report).
2 See Gov. Br. at 11 (citing ROA. 17-60502.368-74); Gov. Br. at
55-63 & n.57 (citing ROA.17-60502.369-73, 2133).

101a
would oppose the relief sought herein.
CONCLUSION
For the foregoing reasons, the government
respectfully requests that the Court delete the
statement at page 15 of its opinion regarding the
government’s having turned over the FBI 302
voluntarily or under Jencks.
Respectfully submitted,
PETER G. STRASSER
UNITED STATES ATTORNEY

Is/ Diane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant United States Attorney
LA Bar Roll No. 23456
U.S. Attorney’s Office (E.D. La.)
650 Poydras Street, Suite 1600
New Orleans, Louisiana 70130
Telephone. (504) 680-3029
EMAIL; diane.copes@usdoj.gov

102a
CERTIFICATE OF SERVICE AND ECF
COMPLIANCE
I hereby certify that on this 24nd day of October,
2018, I electronically filed the foregoing with the
Clerk of Court by using the CM/ECF system, which
will send a notice of electronic filing to ECFregistered counsel of record.
I further certify the foregoing document meets the
required privacy redactions! that it is an exact copy
of the paper document; and the document has been
scanned with the most recent version of a
commercial virus scanning program and is virusfree.
I siDiane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant U.S. Attorney

103a
CERTIFICATE OF COMPLIANCE
Certificate of Compliance with Type-Volume
Limitation, Typeface Requirements, and Type Style
Requirements
1. This document complies with the type-volume
limitation of FED. R. APP. P. 27(d)(2) because^
□ this document contains 313
words, excluding
the parts of the document exempted by FED. R.
APP. P. 32(f), or
□ this document uses a monospaced typeface and
lines of text, excluding the
contains
parts of the document exempted by FED. R. APP. P.
32(f).
2. This document complies with the typeface
requirements of FED. R. APP. P. 32(a)(5) and the
type style requirements of FED. R. APP. P. 32(a)(6)
because:
xD this document has been prepared in a
proportionally spaced typeface using Word 2010 in
14 point New Times Roman, or
□ this document has been prepared in a
monospaced typeface using
[state
name and version of word processing program ] with
___________[state number of characters per inch
and name of type style].
/s/ Diane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant U.S. Attorney
October 24, 2018

104a

Appendix H

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

NO. 17-60502

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
CHARLES BOLTON; LINDA BOLTON,
Defendants-Appellants.

Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
CHARLES BOLTON,
Defendant-Appellant.

Appeal From The United States District Court
For The Southern District of Mississippi
Honorable Keith Starrett, District Judge
Criminal Docket No. 16-CR-00007

105a

MOTION TO CORRECT STATEMENT
The government respectfully requests that this
Court correct one statement in its opinion regarding
allegations of a Brady violation arising from an FBI
302 report of an interview with John Lee. In
particular, the opinion states that the FBI 302 was
turned over as required Jencks material. Slip op. at
15. However, the author of the report, an FBI agent,
did not testify, and the FBI 302 thus was not turned
over as required Jencks material. Rather, IRS Agent
Luker testified, and Agent Luker’s investigative
report was turned over under Jencks.
As the government stated in its brief, “the Boltons
received Agent Luker’s report as Jencks material.”
Gov. Br. at 60 (citing district court order at ROA.1760502.372); see ROA.17-60502.6687-95 (Luker
report). Further, as the record reflects, the district
court, in its order denying a renewed motion for new
trial and for discovery, stated, “The Government
turned over Agent Luker’s report of the interview as
required Jencks material. The FBI report was not
turned over because it was not required to be turned
over, as it was not exculpatory or impeaching, nor
was it a statement of a testifying witness.” ROA.1760502.372. The government thus respectfully
requests that the opinion be corrected in this regard.
Jeffrey M. Brandt, counsel for defendant-appellant
Linda Bolton, stated that Linda Bolton concurs in
the government’s request that the Court correct the
statement that the FBI 302 was turned over as
required Jencks material. However, a

106a
representative from the office of Ivan Bates, counsel
for defendant-appellant Charles Bolton, stated,
“Charles Bolton does not concur. The court’s opinion
was based in part on this erroneous fact, and it may
have led to the court’s ultimate conclusion.”
CONCLUSION
For the foregoing reasons, the government
respectfully requests that the Court correct the
statement at page 15 of its opinion to reflect that the
FBI 302 was not turned over as required Jencks
material.

Respectfully submitted,
PETER G. STRASSER
UNITED STATES ATTORNEY

/s/ Diane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant United States Attorney
LA Bar Roll No. 23456
U.S. Attorney’s Office (E.D. La.)
650 Poydras Street, Suite 1600
New Orleans, Louisiana 70130
Telephone. (504) 680-3029
EmaiT diane.copes@usdoj.gov

107a
CERTIFICATE OF SERVICE AND ECF
COMPLIANCE
I hereby certify that on this 22nd day of October,
2018, I electronically filed the foregoing with the
Clerk of Court by using the CM/ECF system, which
will send a notice of electronic filing to ECFregistered counsel of record.
I further certify the foregoing document meets the
required privacy redactions! that it is an exact copy
of the paper document! and the document has been
scanned with the most recent version of a
commercial virus scanning program and is virusfree.
IsiDiane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant U.S. Attorney

108a
CERTIFICATE OF COMPLIANCE
Certificate of Compliance with Type-Volume
Limitation, Typeface Requirements, and Type Style
Requirements
1. This document complies with the type-volume
limitation of FED. R. APP. P. 27(d)(2) because:
xD this document contains 313
words, excluding
the parts of the document exempted by FED. R.
APP. P. 32(0, or
□this document uses a monospaced typeface and
lines of text, excluding the
contains
parts of the document exempted by FED. R. APP. P.
32(0.
2. This document complies with the typeface
requirements of FED. R. APP. P. 32(a)(5) and the
type style requirements of FED. R. APP. P. 32(a)(6)
because:
□ this document has been prepared in a
proportionally spaced typeface using Word 2010 in
14 point New Times Roman, or
□ this document has been prepared in a monospaced
[state name and
typeface using
version of word processing program ] with
___________[state number of characters per inch
and name of type style].
/s/ Diane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant U.S. Attorney
October 22, 2018

109a

Appendix I

U.S. Department of Justice :
Freedom of Information
Privacy Staff
: : Executive Office for
United States Attorneys
600 E Street. NW
Suite 7300
Bicentennial Building
Washington, DC 20530
(202)252-6020
FAX (202) 252-6047

April 4, 2017

Ivan Bates
n/a
n/a,::

Re^ Request Number: FOIA-2017~0044Q Date of
Receipt: November 10, 2016
Subject of Request: US Attorney Recusals ~ USAO
Southern Mississippi

110a

Dear Mr. Bates1
Your request for records under the Freedom of
Information Act/Privacy Act has been processed.
This letter constitutes a rep ly from the Executive
Office tor United States Attorneys, the official
record-keeper for all records located in this office and
the various United States Attorneys.
To provide you with the greatest degree of access
authorized by the Freedom of Information Act and
the Privacy Act, we have considered your request in
light of the provisions of both statutes.
The records you seek are located in a Privacy Act
system of records that, in accordance with
regulations promulgated by the Attorney General, is
exempt from the access provisions of the Privacy Act.
28 CFR § 16.81. We have also processed your request
under the Freedom of Information Act and are
making all records required to be released, or
considered appropriate for release as a matter of
discretion, available to you. This letter is a [ x]
partial [ ] full denial.
Enclosed please find:
113 page(s) are being released in full (RIF);
___page(s) are being released in part (RIP);
_13_page(s) are withheld in full (WIF).
The redacted/withheld documents were reviewed to
determine if any information could be segregated for
release.

111a
The exemption(s) cited for withholding records or
portions of records are marked below. An enclosure
to this letter explains the exemptions in more detail.
(B)(5)
(B)(6)/(B)(?)(c)
[ ] In addition, this office is withholding grand jury
material which is retained in the District.
[ ] A review of the material revealed:
[ ] Our office located records that originated with
another government component. These records were
found in the U.S. Attorney's Office files. These
records will be referred to the following component(s)
listed for review and direct response to you:
[ ] There are public records which may be obtained
from the clerk of the court or this office, upon specific
request. If you wish to obtain a copy of these records,
you must submit a new request.
These records will be provided to you subject to
copying fees.
[ ] Please note that your original letter was split into
separate files ("requests”), for processing purposes,
based on the nature of what you sought. Each file
was given a separate Request Number (listed below),
for which you will receive a separate response:
[x] See additional information attached.

112a
If you are not satisfied with my response to this
request, you may administratively appeal by writing
to the Director, Office of Information Policy (OIP),
United States Department of Justice, Suite 11050,
1425, New York Avenue, NW, Washington, DC
20530-0001, or you may submit an appeal through
OIP's FOIA online portal by creating an account on
the following web site:
http s ://foiaonline .re gulations. gov/foia/action/p ublic/h
ome. Your appeal must be postmarked or
electronically transmitted within ninety (90) days of
the date of my response to your request. If you
submit your appeal by mail, both the letter and the
envelope should be clearly marked "Freedom of
Information Act Appeal."
You may contact our FOIA Public Liaison at the
telephone number listed above for any further
assistance and to discuss any aspect of your request.
Additionally, you may contact the Office of
Government Information Services (OG1S) at the
National Archives and Records Administration to
inquire about the FOIA mediation services they
offer. The contact information for OGIS is as follows:
Office of Government Information Services, National
Archives and Records Administration, 8601 Adelphi
Road, OGIS, College Park, Maryland 20740-6001; email at ogis@nara.gov; telephone at 202*741-5770;
toll free at 1-877-684-6448; or facsimile at 202-741*
5769.
Sincerely,

/s/

113a
Kevin Krebs
Assistant Director
Enclosure(s)

Form No. 021nofee-12/15

114a
Formal Notice: Office-wide Recusal -Southern
District of Mississippi

From: Susan Wild, (USAEO)
To: Davis, Gregory (USAMSS); Polite, Kenneth A,
(USALAE); Britton, Harold (USAMSS); Westling,
Richard (USALAE)
Cc: Smith, Sharon D. (USALAE); Morgan, Ruth
USAMSS); Harper, Fred (USALAE); Nguyen, Mimi
(USALAE); Clark, Carla (USAMSS); Golden, Jay
(USAMSS); Anderson, Thomas (USAEO); Macklin,
Jay (USAEO); Margolis, David (ODAGXJMD) [David
Margolis]@usdoj.gov; Shea, Carol (USAEO)

Date: Wed, Jul 29, 2015 9:17 AM ET
MEMORANDUM FOR:
Gregory Davis
United States attorney
Southern District of Mississippi
Kenneth Polite
United States Attorney
Eastern District of Louisiana
THROUGH: David Margolis
Associate Deputy Attorney General
Office of the Deputy Attorney General
Jay Macklin

115a
General Counsel
Executive Office for United States Attorneys
FROM: Susan Wild
Assistant General Counsel
General Counsel’s Office
Executive Office for United States Attorneys
RE: Office-wide Recusal of the Southern District of
Mississippi from the Investigation and potential
prosecution of Charles Bolton (GCO File No: REC*
15-3514)
THIS IS FORMAL NOTICE that David Margolis,
Associate Deputy Attorney General (ADAG), has
approved the recusal of the entire United States
Attorney’s Office for the Southern District of
Mississippi from the investigation and potential
prosecution of Charles Bolton. The ADAG
authorized the recusal in accordance with United
States Attorneys’ Manual (USAM, 3-2.170) and,
United States Attorney’ Procedures (USAF), 3-2,
170.001 based upon existing conflicts of interest or
appearance of conflicts of interest pertaining to the
matter.
ADAG Margolis has assigned this matter to the
United States Attorney’s office for the Eastern
District of Louisiana and pursuant to 28 U.S.C.
§515(a), has directed and authorized Unites States
Attorney Kenneth Polite, or his successor, to conduct
any kind of legal proceedings, civil or criminal,
including grand jury proceedings and proceedings
before committing magistrate judges, which the
United States Attorney for the Southern District of

116a
Mississippi is authorized by law to conduct
regarding this matter. See USAP 3-2, 2.170.001
(6) (C)(2)(b).
Each Office shall communicate directly with the
other concerning transfer of information related to
this matter in accordance with USAP 3'2, 2.170.001
(6)(C)(2)(b)(3). The point of contact for the Southern
District of Mississippi is Assistant United States
Attorney Ruth Morgan, who can be reached at (228)
563-7256, and the contact person in the Eastern
District of Louisiana is Assistant United States
Attorney Fred Harper, who can be reached at (504)
680-3000.
All Assistant United States Attorneys subsequently
assigned to this matter must be appointed as Special
Attorneys in order to appear on behalf of the
government in the Southern District of Mississippi.
See USAM, 3-2.300 and USAP 3- 2.170.001(6)
(C)(2)(b)(3), any Special Attorney assigned the
matter or case should sign any pleadings or
documents using the signature block of the Eastern
District of Louisiana, with the addition of the
Attorney General’s name proceeding that of the
United States Attorney.
If you have any questions relating to this recusal
matter, or if the recused office requires information
related the matter above for security reason or for
handling a different infestation or prosecution,
please contact Assistant General Counsel Susan
Wild, General Counsel’s Office, EOUSA.

117a

http V/usaproofpointsearch.usa.doj
. gov/Web .UI/ArchiveSe arch/
ArchivePreviewer:aspx?D
,1/30/2017

118a

Appendix J

CHARLES BOLTON
Hattiesburg. MS 39401
SSN
1000271403

"

Years: 2009, 2010, 2011, 2012, 2013:

Violation(s) :Title 26, United States Code, Section
.."■7201

LINDA BOLTON
Hattiesburg, MS 39401
SSN
:

100000000

: Years: 2009, 2010, 2011, 2012, 2013
Violation(s):Title 26, United States Code, Section
7201
Special Agent: Bradley Luker
Revenue Agent:

[

REDACTION

]

119a
DISPOSITION OF PROCEEDS
No significant purchases were noted during the
period the investigation covered. The funds
represented to be loans were used in the normal
course of business for Sports 22 and Hall Avenue.
The funds from the cashed checks were not linked to,
any significant purchases or events.

RELEVANT CONDUCT
CHARLES BOLTON No Relevant Conduct
LINDA BOLTON No Relevant Conduct

CURRENT LIFESTYLE
CHARLES BOLTON

120a

Appendix K

Case 2:i6-cr-00007-KS-MTP
Excerpt Pre — Sentence Investigation Pertaining to
Charles Bolton

Part F. VARIANCES THAT MAY BE
CONSIDERED IN IMPOSING SENTENCE
181. The probation officer has not identified any
factors under 18 U.S.C § 3553 (a) that warrant a
variance and imposition of a non-guideline sentence.
182. The defendant shall abstain from use of alcohol
and illegal drugs.
183. The defendant shall

Respectfully Submitted
Mark D. Quarles
Chief U.S. Probation Officer
Is/
By: Matthew Becker
Michelle Colwell
US Probation Officer
2017.03.09 14:54:05
-06’00

121a

Approved
/s/
Sarah J. Mentore
Sarah J. Mentore
Supervisory U.S. Probation Officer
2017.03.09 15:35:34
06’00

122a

Appendix L

U.S. Department of Justice
United States Attorney
Eastern District of Louisiana
Southern District of Mississippi
The Poydras Center
650 Poydras Street, Suite 600
Telephone^ 504-680-3066
Fax: 504-589-3602

June 5, 2017
Fred P. Harper, Jr
Assistant United States Attorney
Senior Litigation Counsel
Special Assistant US Attorney —SDMS
Re: United States v. John Lee
Criminal Docket No.*
Dear Judge Starrett:
In compliance with the holding of Bryan v. United
States, 492 F.2d 775 (5th Cir. 1974), and with Rule
11 of the Federal Rules of Criminal Procedure, the
Government wishes to acknowledge the following
Page 1 of 5
agreement between the Government and John Lee,

123a
the defendant in the above-captioned proceeding,
Defendant’s undersigned counsel, Richard Simmons,
James Tucker, & John Colette, having reviewed the
terms of this agreement and have been advised by
the defendant that the defendant fully understands
the terms of this agreement.
The Government has agreed to allow the defendant
to waive indictment and plead guilty to one count of
Bill of Information, charging a violation of 26 U.S.C.
§7606(1) and 18 U.S.C. §2, for filing false tax returns
for Lee, PA and John Lee personal joint returns for
the tax years 2012- 2014. All parties understand
these charges are to be approved by the Tax Division
of the Department of Justice. Defendant agrees
that, should DOJ Tax Division select a single year
from the tax years 2012 through 2014 as the basis
for a plea to the offense set forth above, that the
figures applicable to the uncharged years will be
considered and adopted as relevant conduct and
would impact the calculation of the applicable
sentencing guide lines. The Government also agrees
that it will not bring any other charges in the
Southern District of Mississippi arising from the
defendant’s violation of the Federal Tax Law as long
as the defendant has truthfully informed law
enforcement officials of the full and complete details
of those crimes prior to his guilty plea in this case.
The defendant understands that this does not apply
to crimes of violence that the defendant may have
committed.
Page 2 of 5

The defendant further understands that the

124a
maximum penalty defendant may receive should his
plea of guilty be accepted is three (3) years
imprisonment and/or fine of $250, 000, or the greater
of twice the gross gain to the defendant or twice the
gross loss to any person under Title 18, United
States Code, Section 3571.
It is also understood that the restitution provisions
of Sections 3663 and 3663A of Title 18, United
States Code will apply. The defendant agrees that
any restitution imposed will be non-dischargeable or
a finding of dischargeability as to the restitution
obligation. The defendant further acknowledges and
understands that, notwithstanding any payment
schedule imposed at sentencing or during probation
or supervised release, restitution is due and payable
in full immediately upon entry of the judgment of
conviction.
Further, the defendant understand that a
mandatory assessment fee of $100.00 shall be
imposed under the provisions of Section 3013 of Title
18, United States Code. This special assessment
must be paid on the date of sentencing. Failure to
pay this special assessment may result in the plea
agreement being void.
The defendant further understand that the Court, in
imposing a sentence of a term of imprisonment, may
include may include as part of the sentence a
requirement that the defendant be place on a term of
supervised release after imprisonment of a period up
to three years pursuant to Title 18, United States
Code, Section 3583. Supervised release is a period
following release from prison during which

125a
defendant’s conduct will be monitored by the Court
designee. Defendant fully understands that if
defendant violates any of the conditions of
supervised release that the Court has imposed,
defendant’s supervised release may be revoked and
defendant may be ordered by the Court to serve in
prison all or all or part of the term of supervised
release.
Defendant understands that Title 18, United States
Code, Section 3742 and Title 28, United States Code,
Section 1291, may give a criminal defendant the
right to appeal his conviction, sentence, restitution,
fine, and judgment imposed by the Court.
Defendant also understands that he may have the
right to file collateral challenges to his conviction
and sentence, and judgment, including but not
limited to rights provided by Title 28, United States
Code, Sections 2255 and 2241, Rule 60 of the Federal
Rules of Civil Procedure, Rule 36 of the Federal
Rules of Criminal Procedure, and writs of coram
nobis and audita querela. Defendant further
understands that Title 18, United States Code,
Section 3582 (c)(2), may allow the Court to grant a
sentencing reduction to the defendant if the
defendant has been sentenced to a term of
imprisonment based upon a sentencing range that
has been subsequently lowered by the United States
Sentencing Commission and determined to apply
retroactively to defendants who already have been
sentenced to a term of imprisonment.
Acknowledging these rights, subject only to the
exceptions indicated in subsection (d) below, the
defendant, in exchange for the promises and

126a
agreements may be the United States in this plea
agreement, knowingly and voluntarily.
a. Waives and gives up any right to appeal or
contest his guilty plea, conviction, sentence,
fine, supervised release, and any restitution
imposed y any judge under any applicable
restitution statute, including but not limited
to any right to appeal any rulings on pretrial
motions of any kind whatsoever, as well as
any aspect of this sentence, including but not
limited to any and all rights which arise under
Title 18, United States Code, Section 3742 and
Title 28, United States Code, Section 1291!
b. Waives and gives up any right to appeal any
order, decision, or judgment arising out of or
relate to Title 18, United States Code Section
3582 (c )(2) imposed by any Judge and further
waives and gives up any right to challenge the
manner in which his sentence was determined
and to challenge any United States
Sentencing Guide,=lines determinations and
their application by any judge to the
defendant’s sentence and judgment;
c.

Waives and gives up any right to challenge
his sentence collaterally, including but not
limited to any and all rights which arise under
Title 28, United States Code, Section 2255 and
2241, Rule 60 of the Federal Rules of Civil
Procedure, Rule 36 of the Federal Rules of
Criminal Procedures, writs of coram Nobis
and audita querela, and any other collateral
challenges to his sentence of any kind; and

127a

d. The defendant specially does not waive, and
retains the right to bring a dix'ect appeal of
any sentence imposed in excess of the
statutory minimum. The defendant also
retains the right to raise a claim of ineffective
assistance of counsel in an appropriate
proceeding.
The defendant further waives any right to seek
attorney’s fees and/or other litigation expenses under
the “Hyde Amendment,” Title 18, United States
Code, Section 3006A and the defendant
acknowledges that the Government’s position in the
instant prosecution was not vexatious, frivolous or in
ad faith.
The defendant understands that any discussions
with the defendant’s attorney or anyone else
regarding sentencing guidelines are merely rough
estimates and the Court is not bound by this
discussions. The defendants understands that the
sentencing guidelines aere advisory and are not
mandatory for sentencing purposes. The defendant
understands the Court could impose the maximum
term of imprisonment and fine allowed by law,
including the imposition of supervised release. The
defendant is also aware that in determining a fair
and just sentence, the Court has the authority and
discretion, pursuant to Title 18, United States Code,
Section 3553 and 3661 and Section 1B1.3 of the
United States Sentencing Guidelines, to consider
any and all “relevant conduct” that the defendant
was involved in, the nature and circumstances of the
offenses, and the history and characteristics of the

128a
defendant.
In an effort to resolve this matter in a timely fashion
and show good faith, the defendant agrees to
knowingly, voluntarily, and expressly waive his
rights pursuant to Rule 410(a) of the Federal Rules
of Evidence upon signing this plea agreement and
the factual basis. The defendant understands and
agrees that in the event the defendant violates the
plea agreement, withdraws his decision to plead
guilty, his guilty plea is later withdrawn or
otherwise set aside, any statements, made by the
defendant to law enforcement agents or an attorney
for the prosecuting authority during plea
discussions, any statement made by the defendant
during any court proceedings involving the
defendant’s plea of guilty, including any factual
bases or summaries signed by the defendant, and
any leads from such statements, factual bases or
summaries, shall be admissible for all purposes
against the defendant in any and all criminal
proceedings.
The defendant further agrees to submit to interviews
whenever and wherever requested by law
enforcement authorities regarding all assets
currently or previously within defendant’s
possession. It is also understood that defendant will
provide any and all financial information and
documentation requested by the government, agrees
to voluntarily execute a complete and thorough
Financial Statement of Debtor, and further agrees to
provide the requested List of Items that is attached
to the Financial Statement. The defendant
understands this information may be provided to a

129a
representative of any victim of this offense.
The defendant recognizes that any criminal
monetary penalty, whether special assessment,
criminal fine, or restitution, that is owed as a result
of his conviction will be immediately submitted to
the Treasury Offset Program. The defendant waives
any objection to his inclusion in the Treasury Offset
Program.
The defendant understands that the statements set
forth above and in the attached SEALED document
(Attachment A) represents defendant’s entire
agreement with the Government; there are not any
other agreements, letters, or notations that will
affect this agreement.

Very truly Yours,
Duane A. Evans Harold Britton
Acting United States Attorney
/s/
6/12/2017
Fred Harper, JR.
Date
Senior Litigation Counsel
Special Assistant United States Attorney
/s/
RICHARD SIMMONS

/s/

6/12/2017
Date

6/12/2017

130a
JAMES TUCKER

Date

/s/
JOHN COLLETTE

6/12/2017
Date

Attorneys for DEFENDANT
/s/
JOHN LEE

6/12/2017
Date

131a
ORDER GRANTING MOTION TO SEAL
For the reasons stated in the government’s Motion to
Seal, the Court grants the motion.
IT IS HEREBY ORDERED that the file and all
documents filed herein including but not limited to
the Information and Return be sealed, as well as the
Motion and this Order to Seal.
IT IS FUTHER ORDERED that the U.S. Marshall
Service and/or the United State’s Attorney’s Office
shall make copies of the Information, warrant, and
any related documents available to other federal,
state, and local law enforcement agencies who
request the same as needed to facilitate the arrest
and detention of the Defendant. This matter will be
unsealed at the Defendant’s initial appearance
absent further order of the court. The Court
reserves the right to unseal this matter if there is
any material delay in scheduling the initial
Defendant’s initial appearance or for good cause.
ORDERED this 13th day of September, 2017.

/s/

Michael T. Parker
UNITED STATES MAGISTRATE JUDGE

132a
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF MISSISSIPPI
EASTERN DIVISION
Southern District
of Mississippi
Filed
September 13, 2017
BY Deputy
ARTHUR JOHNSTON
CRIMINAL NO. 2:l7crl9-KS-MTP
UNITED STATES OF AMERICA
v.
JOHN W. LEE, JR.

26 U.S.C. §7206 (l)

The United States Attorney charges'
That on or about March 7. 2013. in Hattiesburg.
Mississippi in the Eastern Division of the
Southern District of Mississippi. JOHN W. LEE,
JR., a resident of Hattiesburg, Mississippi, did
will fully make and subscribe a 2012 U.S.
Corporation Income Tax Return. Form 1120,
which was by a written declaration that it was
made under the penalties of perjury and which he
did not believe to be true and correct as to every
material matter. That the 2012 Form 1120, which
was prepared and signed in the Eastern Division
of the Southern District of Mississippi and was

133a
verified with the Internal Revenue Service stated
that the tax due for John W. Lee, Jr., P.A. was
zero. Whereas, the amount due and owing was in
fact $141,832.00 and he then and there knew that
there should be tax due for John W. Lee. Jr. P.A.
for 2012.
All in violation of Section 7206(l). Title 26.
United States Code and Section 2, Title 18, United
States Code.

s/ Jay T. Golden_______
For : HAROLD BRITTON

134a
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF MISSISSIPPI
EASTERN DIVISION
CRIMINAL NO. 2:l7crl9-KS-MTP
UNITED STATES OF AMERICA
v.
JOHN W. LEE, JR.
ORDER
The United States Attorney's Office for the Southern
District of Mississippi, United States Marshal
Service and United States Probation Office need a
copy of the Criminal Information and Order [6] that
has been filed herein in order to proceed with their
business. The Clerk is directed to furnish to the
United States Attorney's Office for the Southern
District of Mississippi, United States Marshal
Service and United States Probation Office for the
Southern District of Mississippi a Certified Copy of
the Criminal Information herein and Order [6].
Except for the furnishing of the Certified Copies
above described, the Court's Orders regarding the
sealing of this case remain in full force and effect.
SO ORDERED this the 22nd day of September,
2017.
/s/Keith Starrett
UNITED STATES DISTRICT JUDGE

135a
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF MISSISSIPPI
EASTERN DIVISION
CRIMINAL NO. 2:l7crl9-KS-MTP
UNITED STATES OF AMERICA
v.
JOHN W. LEE, JR

MOTION TO UNSEAL BILL OF INFORMATION.
PLEA AGREEMENT
FACTUAL BASIS AND GUILTY PLEA HEARING
NOW INTO COURT comes the United States of
America, appearing herein through the
undersigned Assistant United States Attorney to
move this Honorable Court to UNSEAL the bill
for information, plea agreement, factual basis, guilty
plea hearing, any related documents
pertaining to the granting of conditions of release,
initial appearance, and arraignment in the
above-captioned case.
The government is engaged in an ongoing criminal
investigation which is related, in part, to this
defendant and the offense outlined in the bill of
information in addition to other suspected
criminal conduct regarding other
individuals/entities. John W. Lee, Jr. has agreed to
cooperate in connection with his plea of guilty and to

136a
provide information believed relevant to that
ongoing criminal investigation. The Government
represents that it has advised the defendant's
retained attorney, John Colette, of its intention to
file this Motion to Unseal the factual basis and
guilty plea has been advised by counsel that the
motion is opposed. Nevertheless the Government
submits that the unsealing of the guilty plea and the
entry of this Order furthers the interests of justice
and requests that this Court consider unsealing the
file despite the defendant's objections.
The United States submits that the public's interest
in law enforcement completing its investigation into
the possible criminal activities of others and the
health of the defendant, whose attorneys have
provided sufficient information to the government of
the defendant's current medical condition, now
outweigh any compelling law enforcement interest in
keeping this Guilty Plea sealed.
For the reasons stated herein, the Clerk of Court for
the Southern District of Mississippi should be
ordered to Unseal the entirety of this case until
further order of this Court.
WHEREFORE, PREMISES CONSIDERED, the
Government requests that the entirety of the
proceedings regarding John W. Lee, Jr. be unsealed.
This the 17th day of February, 2018.

Respectfully submitted,

137a

D. Michael Hurst, JR.
United States Attorney

/s/
Ray T. Golden
Assistant United States Attorney
MS Bar #4881
1375 20th Street
Gulfport, MS 39501
Phone:(228) 563-1560
Fax: (228-563-1571
Jay.Golden@usdoi.gov

138a
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF MISSISSIPPI
EASTERN DIVISION
CRIMINAL NO. 2:i7crl9-KS-MTP
UNITED STATES OF AMERICA
v.
JOHN W. LEE, JR

ORDER GRANTING MOTION TO UNSEAL
Having considered the Motion of the United States
to unseal the bill of information, plea agreement,
factual basis, and plea hearing and the instant
Motion to Unseal the previous Order to Seal,

IT IS HEREBY ORDERED that the Clerk of Court
for the Southern District of Mississippi unseal the
entire case, including the bill of information, plea
agreement, factual basis, guilty plea hearing, and
any related documents pertaining to the granting of
conditions of release. Initial appearance, and
arraignment in the above-captioned case together
with the original Order to Seal.
SO ORDERED, this the 17th day of February, 2018.
/s/Keith Starrett
UNITED STATES DISTRICT JUDGE

139a

Appendix M

Case: 17-60502 Document: 00514431572
Date Filed: 04/16/2018
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
Appeal No. 17-60502
v.
CHARLES BOLTON and
LINDA BOLTON, 2:l6-cr-00007-02
Defendants-Appellants.
On appeal from the U.S District Court for the
Southern District of Mississippi Eastern Division,
Motion to Supplement the Record on Appeal (ROA)
Defendant-Appellant, Charles Bolton, through
counsel, Ivan J. Bates, and Bates & Garcia, LLC,
pursuant to FRAP 27, respectfully requests that the
record on appeal (ROA) be supplemented to include
District Court case documents arid transcript pages
that are still missing as outlined in the attached
Exhibits.
In support, Appellant Bolton states as follows:
Appellant’s Opening Brief was filed on March 30,
2018. This court suspended briefing to allow the

140a
District Court for the Southern District of
Mississippi to finalize the filing of the record on
appeal because some case documents were not
included in the record. As of the date of this filing,
documents are still missing from the record on
appeal. Mr. Bolton has filed his brief and included
those documents requiring supplement in the
Appellant’s Appendix to Opening Brief. Copies of the
documents counsel seeks to supplement the record
are provided at Exhibits 1-10.
Therefore, Mr. Bolton respectfully asks this Court to
supplement the record on appeal for case number 17605-02, and to further take judicial notice of those
records. See Back v. Tex. Dep’t of Crim. Justice Corr.
Insts. Div., No. 16-41207, 2017 U.S. App. LEXIS
24936, at *2-3 (5th Cir. Dec. 11, 2017); United States
v. Hatley, No. 17-30288, 2018 U.S. App. LEXIS 2030,
at *21-22 (5th Cir. Jan. 26, 2018).
Date^ April 2, 2018, 2018
Respectfully submitted,
/s/
IVAN J. BATES, ESQUIRE
Bates & Garcia, LLC
Attorneys at Law
201 N. Charles Street, Suite 1900
Baltimore, Maryland 21201
PHONE: (410) 814-4600

141a
CERTIFICATE OF INTERESTED PARTIES
The undersigned counsel certifies that the persons
having an interest in the outcome of this case are:
1. Charles Bolton, Defendant-Appellant;
2. Linda Bolton, Defendant-Appellant
3. Fred Harper, Assistant United States Attorney,
Eastern District of
Louisiana!
4. Sharon Lieberman, Assistant United States
Attorney, Eastern District of
Louisiana!
5. Robert B. McDuff;
6. Harold Brittain;
7. Joe Sam Owen, Trial Attorney for Charles Bolton;
8. Ben F. Galloway, III, Trial Attorney for Linda
Bolton;
9. Gina Morris, Court Reporter;
10. Matthew Becker, Probation Officer, Southern
District of Mississippi;
11. Honorable Keith Starrett, United States District
judge, Southern
District of Mississippi
Case: 17-60502 Document: 00514431572 Page: 3
Date Filed: 04/16/2018
Dated: April 2, 2018
/s/
IVAN J. BATES, ESQUIRE
Bates & Garcia, LLC
Attorneys at Law
201 N. Charles Street, Suite 1900
Baltimore, Maryland 21201
PHONE: (410) 814-4600

142a
CERTIFICATE OF CONFERENCE
I certify that the government opposing Counsel was
and do not oppose this motion to supplement the
record on appeal.
Dated: April 2, 2018
Is/

IVAN J. BATES, ESQUIRE
Bates & Garcia, LLC
Attorneys at Law
201 N. Charles Street, Suite 1900
Baltimore, Maryland 21201
PHONE: (410) 814-4600
CERTIFICATE OF COMPLIANCE AND SERVICE
I certify that on the date reported below I
electronically filed the foregoing motion for extension
of time using the Court’s CM/ECF system which
should electronically serve Assistant U.S. Attorney
Fred Harper at fred.harper@usdoj.gov, Assistant
U.S. Attorney Diane Hollenshead Copes at
diane.copes@usdoj.gov, Assistant U.S. Attorney
Kevin G. Boitmann at
kevin.boitmann@usdoj.gov, and Assistant U.S.
Attorney Sharan E Lieberman at
sharan.lieberman@usdoj.gov.
Dated: April 2, 2018
/s/
IVAN J. BATES, ESQUIRE
Bates & Garcia, LLC
Attorneys at Law
201 N. Charles Street, Suite 1900
Baltimore, Maryland 21201

143a
PHONE: (410) 814-4600

CERTIFICATE OF LENGTH AND TYPEFACE
COMPLIANCE
Under Fed. R. App. P. 32(a)(7) and Fifth Circuit Rule
32.3, I certify that he instant motion is prepared in
typeface 14-point Times New Roman with a total of
301 words. I further certify the foregoing document
meets the required privacy redactions, that is an
exact copy of the paper document, and the document
has been scanned with the most recent version of a
commercial virus scanning program and
is virus free.
Date: April 2, 2018
/s/
IVAN J. BATES, ESQUIRE
Bates & Garcia, LLC
Attorneys at Law
201 N. Charles Street, Suite 1900
Baltimore, Maryland 21201
PHONE: (410) 814-4600

144a
LIST OF “MISSING’ DOCUMENTS REQUESTED
TO SUPPLEMENT THE RECORD ON BEHALF OF
APPEALLANT CHARLES BOLTON Appeal No. 1760502
EXHIBIT 1 CARL NICHOLSON’ SUBPOENA
JUNE 28, 2016
EXHIBIT 2 Email Dated April 26, 2017, From Judge
Keith Starrett to Timothy Phares, Counsel to the
Clerk’s Office 5th Circuit Court of Appeals
EXHIBIT 3 John Lee Jr. Plea Deal Executed June
12, 2017, and Unsealed on February 17, 2018
EXHIBIT 4 Jury Instructions USA vs. Charles
Bolton and Linda Bolton
EXHIBIT 5 Notice of Appeal Filed by Counsel for
Charles Bolton dated August 22, 2017
EXHIBIT 6 Order dated July 24, 2017, By Judge
Keith Starrett to Charles Bolton to show why
Attorney Client Privileged Communications
pertaining to Mr. Bolton should not Be Released on
the Public Docket (Order issued after Notice of
Appeal had been Filed and Jurisdiction of this Case
Accepted by the 5th Circuit) EXHIBIT 7 Response
dated August 5, 2017, by Counsel for Charles Bolton
Objecting to Release of Attorney-Client Privileged
Communications to the Public record
EXHIBIT 8 Order dated August 7, 2017, By Judge
Keith Starrett Granting Release of Attorney-Client
Communications to the Government while Mr.

145a
Bolton’s Direct Appeal was pending at the 5th
Circuit, and after the District Court no longer had
jurisdiction to rule on matters in this case, and after
a prior ruling ordering information remained under
seal until after completion of Mr. Bolton’s direct
appeal.
EXHIBIT 9 March 17, 2017, Sentencing Hearing
Transcript Record on Appeal “Missing” pages 2-47
EXHIBIT 10 August 30, 2017, Telephonic Pre-Trial
Transcript

146a

Appendix N

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
FIFTH CIRCUIT

TEL: 504-310-7700
600 S. MAESTRI
PLACE
NEW ORLEANS,
LA 70130

April 16, 2018
MEMORANDUM TO COUNSEL OR PARTIES
LISTED BELOW:
No. 17-60502 USA v. Charles Bolton, et al
USDC No. 2:l6-CR-7-l
USDC No. 2:i6-CR-7-l
The court has granted the opposed motion of
appellant Charles Bolton to supplement the record
in this case. The originating court is requested to
add the attached documents to their court's docket
and to provide us with a supplemental electronic
record. Counsel is reminded that any citations to
these documents must cite to the supplemental
electronic record.
Sincerely,

147a
LYLE W. CAYCE, Clerk
By:___/s/________ _________ __
Mary C. Stewart, Deputy Clerk
504-310-7694
Mr. Ivan J. Bates
Mr. Kevin G. Boitmann
Mr: Jeffrey Michael Brandt ::
Ms. Diane Hollenshead Copes
Mr. Fred Patrick Harper Jr.
Mr. Willie J. Huntley Jr.
Mr. Arthur S. Johnston III
Ms. Sharan E. Lieberman
Mr. Jeffrey Ryan McLaren
Ms. U. Katrina Mitchell
Case: 17-60502 Document: 00514431575 Page: \
Date Filed: 04/16/2018

148a
Case^ 17-60502 Document: 00514431532 Page: \
Date Filed: 04/16/2018
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-60502

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON; LINDA BOLTON,
Defendants - Appellants
Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON,
Defendant - Appellant
Appeals from the United States District Court
for the Southern District of Mississippi

149a
Case- 17-60502 Document: 00514431532 Page; 2
Date Filed: 04/16/2018
ORDER
IT IS ORDERED that the opposed motion of
appellant Charles Bolton to supplement the record
with exhibits 1-10 is Granted, but Denied as to
Exhibits 5, 7, 8, 9, 10. :
7s/ Patrick E. Higginbotham^__ _
PATRICK E. HIGGINBOTHAM
UNITED STATES CIRCUIT JUDGE

150a

Appendix 0
Excerpt of Sworn Testimony
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF MISSISSIPPI
EASTERN DIVISION
TRANSCRIPT OF THE TESTIMONY OF JOHN W.
LEE, JR.
WENESDAY AND THURSDAYM FEBRUARY 6,
AND 7, 2019
BEFORE THE HONORABLE KEITH STARRETT
UNITED STATES DISTRICT COURT JUDGE
UNITED STATES OF AMERICA
v.
CARL NICHOLSON

CRIMNAL ACTION NO:
2;18CR23

DEFENDANT
A. Yeah, I "I'm guilty of taking tax deductions to
which I was not entitled to, that were not legitimate,
and I take full responsibility for the actions I took,
which were wrong.

151a
Q. Well, there's been talk about fraud, but what you
just described is kind of a fancy way, or it's an
accurate way, but is it "did you cheat on your taxes?
A. Yes, sir.
Q. Who knew about you cheating on your taxes
besides you? Did you go out and tell everybody in
town that you cheated on your taxes?
A. No. That would be good, common sense.
I, I relied on Carl Nicholson. It was Carl and
myself. And he aided and assisted me in, in the
preparation of the tax returns, and he signed off on
those tax returns and went over them, and I
Q. Did you ever tell Dawn Jones or Lisa Mullis that
those were not legitimate deductions?
A. No, sir, I never told them. I dealt with Carl
Nicholson.
Q. Did you ever tell Frank McWhorter or anybody
else at the firm that these weren't legitimate
deductions?
A. I only dealt with Carl Nicholson.
That's absolutely correct.
Q. And you were motivated by greed.
A. That's correct.
Q. And you got caught.
A. Yeah, I got caught.
Q. And you made a deal with the government.
A. Well, I didn't make... I was forced to make a deal
with the government or go to jail, kind of like
Monopoly. When they subpoenaed my family to
Jackson, I "that's when I shut it down. I "I had to
protect my family.
Q. You do, don't you?
A. Yes, sir.
Q. You'd do anything for your family?
A. That's correct.

152a
Q. John, your greed hurt a lot of good people
along the way, didn't it?
A. Sorry?
Q. Your greed hurt a lot of people along the way.
A. My greed, along with Carl Nicholson's greed, yes,
who aided and abetted me every step of the way.
Q. And as part of that deal you made with the
government, you agreed to tell the truth.
A. Yes, sir.
Q. And it's your testimony that you're telling the
truth.
A. Yes, sir.
A. And the bad truth was, it was I had so much
money and I was making so much money. It was so
stupid and crazy what I did. It was uncalled for.
And, you're right, it was greed, I'm guilty of that.
And all I'm saying here today, I'm not trying
to pin anything on Carl Nicholson, I am here telling
the truth, and, and ever what this jury does, I don't
wish anything bad on anybody. But I'm here to tell
the truth that he was involved in this with me. And
the bad thing about it, we got swept up with power,
and both of us came from, like I say, humble origins
and we got to making so much money, and we -we
lost sight of reality.
And then God took over.
Q. You testified you love your family, John. You
love them more than money?
A. Oh, yes.
Q. You were willing to lie for money.
A. Do what, sir?
Q. You were willing to lie for money?
A. I did lie for money.

153a
Q. And you would lie for your family and
children, wouldn't you?
A. Yeah, I wrote them checks and all those life
insurance policies. I wasn't getting a dime of
that.
All that money was going to them that I was paying
when I died, that they would have enough money to
take care of them
A. Yes.
Q. And you can't do that behind the four walls of a
prison.
A. No, sir, I can't.
Q. And if you are willing to lie
for a dollar, what are you not
willing to do for your family?
MR. GOLDEN: Asked and
answered. This is about the
third or fourth time he's asked
the question. THE COURT:
Sustained. THE WITNESS: I'm
sorry, Judge. I didn't hear you.
THE COURT: I sustained the
objection.
Next question. BY MR. HIGHTOWER:
Q. Are you willing trade Carl Nicholson's freedom,
his liberty and his life so that you can be with yours
as it ends? A. I pray for Carl every night. MR.
HIGHTOWER: I tender the witness.

154a

Appendix P
EXTENSION OF TIME REQUEST FOR
A PETITION FOR WRIT OF CERTIORARI
No.
In The Supreme Court of the United States
LINDA BOLTON, ET AL, Petitioner(s),
v.
United States of America, Respondent(s).
APPLICATION FOR EXTENSION OF TIME TO
FILE
PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES SUPREME COURT
To the Honorable Samuel A. Alita, Jr., as Circuit
Justice for the United States Court of Appeals for
the Fifth Circuit:
Pursuant to Rules 13.5 and 30.2 of this Court,
Petitioner Linda Bolton, respectfully requests that
the time to file a Petition for a Writ of Certiorari in
this matter be extended for sixty (60) days to and
including May 7, 2019; on Petition for a Writ of
Certiorari to the 5th Circuit Court of Appeals, Case
No. 17-60502. Linda Bolton will be joined on the
Petition for Writ of Certiorari by her husband,
Petitioner Charles Bolton, who was a joint defendant
in the underlying Criminal Case that originated in

155a
the Southern District of Mississippi and in the
Appeal Case filed in the Fifth Circuit Court of
Appeals for which this Writ of Certiorari is being
sought.
Absent an extension of time, the Petition would
therefore be due on March 7, 2019.
Petitioner Linda Bolton is filing this Application at
least ten days before that date. See S. Ct. R. 13.5.
This Court would have jurisdiction over the
judgment under 28 U.S.C. § 1254(a).
Petitioner Linda Bolton is currently an inmate at
Aliceville Federal Correctional Institute in Aliceville,
Alabama which has contributed to a delay in my
ability to file the petition by the original 90 days due
date permissible under the law for filing a Petition
for Certiorari with the United States Supreme
Court. Further complicating submission of an
application for a Petition for Certiorari in this case is
the fact that her husband, Charles Bolton, who will
be a joint petitioner in this appeal to United States
Supreme Court, is also incarcerated in the State of
South Carolina, several hundreds of miles away, at
the Edgefield Federal Correctional Institute in
Edgefield, South Carolina. Coordination with both
petitioners across multiple states have presented
challenges to their exercising their legal and
constitutional rights in a timely and efficient
manner.
Petitioner Linda Bolton lost her freedom due to well
documented violations of rights guaranteed under
the Fifth, Sixth, and Fourteenth Amendments of the
Constitution of the United States based on a
judgment issued by Southern District of Mississippi

156a
(App. A), and later upheld by the Fifth Circuit
affirming convictions for Charles and Linda Bolton
for alleging to Attempt to Evade a Tax and Filing of
a False Tax Return. An extension of time is needed
due to the voluminous record and the complexity of
the statutory and legal issues in this case. It is also
imperative that Petitioner Linda Bolton is afforded
an opportunity to file a Petition for a Writ of
Certiorari with this Court due to an impermissible
legal precedent that will be set and, that will
negatively affect the Federal Judiciary for years to
come based on the judgment issued by Southern
District of Mississippi that is both unsupported by
the facts, statutes, and legal precedents, and the
Fifth Circuit Court of Appeals publication of an
Opinion in this case that is, not only inconsistent
with facts or record in this case, but it also usurps
the legal precedents in its own Court and this Court
as follows^
October 18, 2018 Opinion Issued by the Fifth Circuit
as to Charles Bolton and Linda Bolton
The Fifth Circuit Court of Appeals issued an opinion
that upheld Appellants Charles Bolton and
Linda Bolton tax convictions on October 18, 2018
(App. B). The Opinion was incorrect as to several
facts of exceptional importance and application of
incorrect legal standards governing this case. In
addition, the opinion usurped both U. S. Supreme
Court and Fifth Circuit Court of Appeals legal
precedents and conflicts with other circuit opinions
that had significant bearing on the Fifth Circuit
Court of Appeals' erroneous ruling.

157a
The Government promptly filed an email notice and
an October 22, 2018 Motion (App. C) with the Court
requesting correction of information contained in the
Opinion issued on October 18, 2018, that incorrectly
asserted there was no Brady violation because
Appellants Bolton were provided a copy of an FBI
302 Report. This report was suppressed by the
Government and not provided.
October 23, 2018 Modified Opinion Issued by the
Fifth Circuit as to Charles and Linda Bolton.
The Fifth Circuit Court of Appeals overruled the
defense's objection and instead withdrew the October
18, 2018 Opinion and reissued a Modified Opinion on
October 23, 2018, and issued an order, granting the
Government's Motion for an administrative
correction (App. D) by adjusting language pertaining
the Brady and the FBI 302 Report incorrectly. The
Modified opinion of October 23, 2018, did not correct
the legal error suppression of the FBI 302 Report
which was not provided by the Government to
Charles and Linda Bolton, or their Defense Counsel.
As a result, violating the Petitioner's constitutional
rights guaranteed under the Fourteenth Amendment
of the Constitution, and created a conflict in
the administration of justice regarding violation of
Brady under the law.
Following the Fifth Circuit's failed attempt to correct
an issue involving a substantial question of law
pertaining to violations of the Brady rule, in the
Court's Modified Opinion in this case, the Court
erred again in its attempt to correct the opinion
administratively by incorrectly stating the FBI 302

158a
Report was turned over to the defense when it was
not.
On October 24, 2018, The Government filed a formal
motion (App. E) notifying the Court that the
information contained in the Modified Opinion
issued on October 23, 2018, that incorrectly asserted
there was no Brady violation because Appellants
Bolton were provided a copy of an FBI 302 (that
Appellants asserted were suppressed by the
Government) was incorrect and needed to be
corrected. The Government the again requested
correction of the Fifth Circuit’s Modified Opinion.
The Fifth Circuit Court of Appeals errered again
when it issued an order on October 26, 2018,
granting the Government's Motion (App. F) to
Correct its Modified on October 23, 2018), as nondispositive and without any further analysis of
whether a Brady violation had occurred in this case;
and the court did not make a determination whether
the trial court conducted the proper evaluation of
Appellant Bolton's Brady Claim under the correct
legal standard. This is very important because the
Government had already conceded in their
Opposition Brief that the trial Court errered in its
denial of Appellant Bolton's for release of the
relevant FBI 302 Report and stated that the trial
court used the incorrect legal standard for
evaluating a Brady violation. The Government then
recommended the case be remanded for correction by
the trial court on this issue. The Fifth Circuit
Opinion failed to provide any relief on this issue
although it has been conceded. Instead, on October
26, 208, the Fifth Circuit

159a

Court of Appels issued an order, granting the
Government's Motion for an administrative
correction by adjusting language pertaining the
Brady and the FBI 302 Report incorrectly.
October 26, 2018 Modified Opinion Issued by the
Fifth Circuit as to Linda Bolton
The Fifth Circuit Court of Appeals withdrew the
October 23, 2018 Modified Opinion and issued a
third Opinion on October 26, 2018, (App. G),
attempting but failing again to provide the legal
analysis of the Brady Violation issue according to the
correct legal standard or legal precedents governing
this issue. Although the Government filed a motion
with the Fifth Circuit Court of Appeals noticing of
the error in the opinion in which the Court falsely
ruled that there was no Brady violation because
Appellant Bolton was provided a copy of the FBI 302
containing the statements impeaching the
Government's witness, the court failed to correct the
error.
Counsel for Petitioners Charles and Linda Bolton
filed a petition for rehearing to address the
deficiencies contained in the opinion involving
substantial questions of law and facts, failure to
apply the correct legal standards that conflict with
that Court's own prior opinions, conflicts with legal
precedents of this Court and other circuits in which
the opinion was based.
Counsel for Petitioners Charles and Linda Bolton
filed a petition for rehearing November 19, 2018, in
this appeal significant legal and factual questions.

160a
On December 7, 2018, the Fifth Circuit Court of
Appeals issued an order (App. H) in which it denied
a petition for rehearing.
The Fifth Circuit Court of Appeals' failure to follow
the law governing the Appeal Court's own prior legal
opinions and that of established law governing
remedies due to petitioners under the law.
Additionally, this Court failed to decide or remand
for presentation and decision by a trier of fact Gury)
those matters briefed by Petitioners Linda Bolton
and that were supported by established legal
principles and statutes governing tax crimes. The
Fifth Circuit Court of Appeals opinion upholding the
District Court's sentencing order in this case and the
order denying my motion for new trial also violated
the petitioner's constitutionally protected rights
under the Seventh Amendment to the Constitution's
which provides protections for individuals in the
judicial system.
The Seventh Amendment guarantees a jury trial in
common law- consisting of centuries of judicial
precedents. In addition to defining what kinds of
cases require a jury, the Seventh Amendment
highlights the jury's role as "fact finder," and it
imposes limits on the judge's ability to override the
jury's conclusions.
This case presents issues requiring review by the
Supreme Court of the United States due to the
exceptional importance to public policy and
consistency in application of governing legal
principles and legal standards. The importance of
the issues in this case is especially troublesome
because of its significant impact on the public.

161a
Specifically, it creates the chilling prospect that the
prevailing law governing prosecutions for tax crimes
will be replaced with a new legal precedence that not
only overturns centuries old legal precedents of this
Court and for which other circuits rely, and if the
opinion of the Fifth Circuit in this case is allowed to
stand, this precedence is far reaching and opens a
dangerous new frontier for prosecution of tax crimes,
especially to since the grand jury indictments in this
case did not conform the law regarding indictment
for tax violations under Title 26, U.S.C. Specifically
the grand jury was not convened under Title 26 as
required by law but instead was convened under
Title 18 in the wrong jurisdiction.
These important issues will addressed in a Petition
for Certiorari to the U.S. Supreme Court. Therefore,
an extension of time is badly needed both because of
the need to "maintain uniformity of the court's
decisions," and because of the "exceptional
importance" this legal precedence will have on public
policy No meaningful prejudice would arise from the
extension, as this Court would hear oral argument
and issue its opinion in the October 2019 Term
regardless of whether an extension is granted.
CONCLUSION
For the foregoing reasons, the Petitioner Linda
Bolton respectfully requests that the time to file a
Petition for a Writ of Certiorari in this matter should
be extended Sixty (60) days to and including May 7,
2019.
Respectfully submitted

162a
Ivan J. Bates
Bates & Garcia, LLC Attorneys at Law
201 N. Charles Street, Suite 1900 Baltimore,
Maryland 21201
PHONE: (410) 814-4600
Facsimile: (410) 814-4604
ivan@batesgarcia.com
Attorney for Petitioners
February 25, 2019
CERTIFICATE OF SERVICE
I certify that a copy of the foregoing Application,
pursuant to Rules 29.3 and 29.4(a), have been served
on counsel for the respondent, by depositing a copy of
the same, first class postage prepaid, in the United
States mail, on February 25, 2019, and addressed to:
Solicitor General of the United States United States
Department of Justice, Room 5616 950 Pennsylvania
Ave. N.W. Washington, D.C. 20530-0001
Diane Hollenshead Copes, Assistant United States
Attorney Office of the United States Attorney,
Eastern District of Louisiana 650 Poydras Street,
Suite 1600 New Orleans, Louisiana 70130
Respectfully submitted,
Ivan J. Bates
Bates & Garcia, LLC Attorneys at Law
201 N. Charles Street, Suite 1900 Baltimore,
Maryland 21201
PHONE: (410) 814-4600
Facsimile: (410) 814-4604

163a
ivan@batesgarcia.com
Attorney for Petitioners

164a

Appendix Q
From: cwoodfolk@batesgarcia.com
<cwoodfolk@batesgarcia.com> Sent: Monday,
October 22,20185:45 PM To: Copes, Diane (US
ALAE)' <Diane.Copes@usdoj.gov> Subject: RE:
United States v. Charles Bolton et al, No. 17-60502
c-w 1760576
Charles Bolton does not concur. The court's opinion
was based in part on this erroneous fact, and it may
have led to the court's ultimate conclusion.
From: Copes, Diane (USALAE)
<Diane.Copes@usdoLgov> Sent: Monday, October
22, 2018 2:45 PM To: jbrandt@robinsonbrandt.com;
ivan@batesgarcia.com; cwoodfolk@batesgarcia.com
From: "Copes, Diane (USALAE)"
<Diane,Cqpes@usdoj.gov> Date: October 24, 2018 at
1:1 0:09 PM EDT To: "jbrandt@robinsonbrandt.com"
<jbrandt@robinsonbrandt.com>,
"ivan@batesgarcia.com" <ivan@batesgarcia.com>,
"cwoodfolk@batesgarcia.com”
<cwoodfolk@batesgarcia.com> Cc: "Harper, Fred
(USALAE)" <Fred.Harper@usdoj,gov>, "Boitmann,
Kevin (USALAE)" <Kevin.Boitmann@usdoj.gov>,
"McLaren, Ryan (USALAE)"
<Ryan.McLaren@usdoj.gov>, "Ortiz, Patricia
(USALAE)" <p atricia. Ortiz@usdoj. gov>
Subject: United States v. Charles Bolton et al, No.
17-60502 c-w 1760576

165a
Deal' Counsel:
As Mr. Brandt and others have brought to my
attention, the Court failed to correct the incorrect
statement in its opinion. Rather, it changed the
statement in question to say that the report was
turned over as voluntary Jeneks (rather than that
the report was turned over as required Jeneks, as
stated in the original opinion). Particularly, the
opinion currently reads: Further, the government
did not withhold the report from the Boltons; it
voluntarily turned over the report under Jeneks
18 U.S.C. § 3500.
To correct the Court's inaccurate revision, I am filing
a second motion as soon as possible today. To keep it
simple, I am asking the Court to correct its opinion
by striking the sentence entirely:
Furt-her^-t-he-government-did-not-withhold the report
from tho Boltons; it voluntarily turned ovor the
report under Jeneks?
518 U.S.C. § 3500.
Please let me know your position as I would like to
get this corrected as soon as possible.
Thank you,
Diane Copes
DIANE HOLLENSHEAD COPES
ASSISTANT UNITED STATES Attorney
EASTERN DISTRICT OF LOUISIANA
650 POYDRAS STREET, SUITE 1600
NEW ORLEANS, LA 70130
Diane.Copes@usdoi.gov
(0) (504) 680-30291

r

166a

Appendix R

EXCERPT APPELLANTS 5™ BRIEF
SUPPRESSION OF JOHN LEE PLEA DEAL
IV. Prosecutorial Misconduct
A. Brady
(2) The recently unsealed John Lee plea
The Government’s assertion that Appellant has
failed to establish a Brady violation for the John Lee
Plea Deal signed on June 12, 2017 is unsupported by
the facts, the record on appeal, and case law
regarding Brady violations. The Government
suppressed the John Lee Plea Deal by motioning the
District Court to place it under seal. Therefore, it
was not reasonably discoverable by Mr. Bolton
through the exercise of due diligence. G Br. 66,
ROA.7374. The plea deal was favorable to Mr.
Bolton, and exculpatory because it is “relevant to his
guilt or innocence.” Thus, there is a reasonable
probability that had the evidence been disclosed to
the defense, the result of the proceeding would have
been different.” Kyles v. Whitley, 514 U.S. 419
(1995). CB Br. 51*52, ROA.325.
The Government filed an opposition motion to Mr.
Bolton’s Motions for New Trial and for Bond Pending
Appeal on June 12, 2017, the same day the
Government signed and executed the John Lee plea
deal, with full knowledge that John Lee had
admitted to tax fraud for the same checks and
deductions the Government alleged was income to

167a
the Boltons (ROA. 1532-1558). The Government
knowingly used false testimony to obtain a tainted
conviction of the Boltons after being given an
opportunity to correct this error before the Court
decided Mr. Bolton’s Motions for New Trial and his
Motion Release on Bond Pending Appeal. ROA.21082148, ROA.2087'2107. The Government argues that
the plea deal did not exist at the Bolton’s trial or
sentencing, and therefore is neither exculpatory nor
impeaching. G Br. 67. This argument is
unpersuasive, meritless, and is unsupported by the
record or case law. The duty to disclose exculpatory
evidence is ongoing and the Government must
disclose it whenever it is discovered. See Imbler v.
Pachtman, 424 U.S. 409, 427 n. 25 (1976) (stating
that “at trial” a prosecutor’s duty to disclose evidence
comes from the Due Process Clause, while “after a
conviction the prosecutor also is bound by the ethics
of his office to inform the appropriate authority of
after acquired or other information that casts doubt
upon the correctness of the conviction”). The
withholding of the plea deal not only rises to the
level of a Brady violation, but it is so egregious an
argument can be made that the prosecutor’s
misconduct should be investigated similarly as in
United States v. Stevens, 593 F. Supp. 2d 177
(D.D.C. 2009).

168a

Appendix S

28 C.F.R. § 0.70
Tax prosecutions must be approved by the Tax
Division of the DOJ pursuant to 28 C.F.R. § 0.70,
but states that such charges are typically
prosecuted by the local U,S. Attorney's Office, not
the DOJ, and that approval of a charge of
conspiracy to defraud under 18 U.S.C § 371 was in
fact given in this case by the DOJ Tax Division.
§ 0.70 General functions. The following functions are
assigned to and shall be conducted, handled, or
supervised by, the Assistant Attorney General, Tax
Division:
(a) Prosecution and defense in all courts, other than
the Tax Court, of civil suits, and the handling of
other matters, arising under the internal revenue
laws, and litigation resulting from the taxing
provisions of other Federal statutes (except civil
forfeiture and civil penalty matters arising under
Laws relating to liquor, narcotics, gambling, and
firearms assigned to the Criminal Division by §0.55
(d).
(b) Criminal proceedings arising under the internal
revenue laws, except the following; Proceedings
pertaining to misconduct of Internal Revenue
Service personnel, to taxes on liquor, narcotics,

r
169a
firearms, coin-operated gambling and amusement
machines, and to wagering, forcible rescue of seized
property ( 26 U.S.C. 7212(b», corrupt or forcible
interference with an officer or employee acting under
the Internal Revenue laws (26 U.S.C. 7212(a»,
unauthorized disclosure of information (26 U.S.C.
7213), and counterfeiting, mutilation, removal, or
reuse of stamps ( 26 U.S.C 7208).
(c)

(1) Enforcement of tax liens, and mandamus,
injunctions, and other special actions or general
matters arising in connection with internal revenue
matters.
(2) Defense of actions arising under section 2410 of
title 28 of the U.S. Code whenever the United States
is named as a party to an action as the result of the
existence of a Federal tax lien, including the defense
of other actions arising under section 2410, if any,
involving the same property whenever a tax-lien
action is pending under that section. R.
(d) Appellate proceedings in connection with civil
and criminal cases enumerated in paragraphs (a)
through (c) of this section and in §0.71, including
petitions to review decisions of the Tax Court of the
United States.
[Order No. 423-69, 34 FR 20388, Dec. 31, 1969, as
amended by Order No. 445-70, 35 FR 19397, Dec. 23,
1970; Order No. 699-77, 42 FR 15315, Mar. 21, 1977;
Order No. 960-81, 46 FR 52346, Oct. 27, 1981]

r
170a
6-4.200 - Tax Division Jurisdiction and Procedures
The Tax Division must approve any and all criminal
charges that a United States Attorney intends to
bring against a defendant in connection with conduct
arising under the internal revenue laws, regardless
of which criminal statute(s) the United States
Attorney proposes to use in charging the
defendant. See 28 C.F.R. § 0.70.

